<html>
<title> - FEDERAL ENTERPRISE ARCHITECTURE: A BLUEPRINT FOR IMPROVED FEDERAL IT INVESTMENT MANAGEMENT AND CROSS-AGENCY COLLABORATION AND INFORMATION SHARING</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





 FEDERAL ENTERPRISE ARCHITECTURE: A BLUEPRINT FOR IMPROVED FEDERAL IT 
 INVESTMENT MANAGEMENT AND CROSS-AGENCY COLLABORATION AND INFORMATION 
                                SHARING

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON TECHNOLOGY, INFORMATION
                POLICY, INTERGOVERNMENTAL RELATIONS AND
                               THE CENSUS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 19, 2004

                               __________

                           Serial No. 108-227

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
96-944                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
NATHAN DEAL, Georgia                 C.A. ``DUTCH'' RUPPERSBERGER, 
CANDICE S. MILLER, Michigan              Maryland
TIM MURPHY, Pennsylvania             ELEANOR HOLMES NORTON, District of 
MICHAEL R. TURNER, Ohio                  Columbia
JOHN R. CARTER, Texas                JIM COOPER, Tennessee
MARSHA BLACKBURN, Tennessee          ------ ------
PATRICK J. TIBERI, Ohio                          ------
KATHERINE HARRIS, Florida            BERNARD SANDERS, Vermont 
                                         (Independent)

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

   Subcommittee on Technology, Information Policy, Intergovernmental 
                        Relations and the Census

                   ADAM H. PUTNAM, Florida, Chairman
CANDICE S. MILLER, Michigan          WM. LACY CLAY, Missouri
DOUG OSE, California                 STEPHEN F. LYNCH, Massachusetts
TIM MURPHY, Pennsylvania             ------ ------
MICHAEL R. TURNER, Ohio

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                        Bob Dix, Staff Director
              Shannan Weinberg, Professional Staff Member
                         Juliana French, Clerk
           David McMillen, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 19, 2004.....................................     1
Statement of:
    Evans, Karen S., Administrator of E-Government and 
      Information Technology, Office of Management and Budget; 
      Randolph C. Hite, Director, Information Technology 
      Architecture and Systems, U.S. General Accounting Office; 
      Daniel Matthews, Chief Information Officer, Department of 
      Transportation; and Kim Nelson, Chief Information Officer, 
      Environmental Protection Agency............................    11
    McClure, David, vice president for E-Government, Council for 
      Excellence in Government; Venkatapathi Puvvada, Unisys 
      Chair, Enterprise Architecture Shared Interest Group, 
      Industry Advisory Council; Norman E. Lorentz, senior vice 
      president, Digitalnet; and Raymond B. Wells, chief 
      technology officer, IBM Federal, vice president, Strategic 
      Transformations for IBM Software Group, Application 
      Integration & Middleware Division [AIM], IBM Corp..........    86
Letters, statements, etc., submitted for the record by:
    Clay, Hon. Wm. Lacy, a Representative in Congress from the 
      State of Missouri, prepared statement of...................     9
    Evans, Karen S., Administrator of E-Government and 
      Information Technology, Office of Management and Budget, 
      prepared statement of......................................    14
    Hite, Randolph C., Director, Information Technology 
      Architecture and Systems, U.S. General Accounting Office, 
      prepared statement of......................................    22
    Lorentz, Norman E., senior vice president, Digitalnet, 
      prepared statement of......................................   113
    Matthews, Daniel, Chief Information Officer, Department of 
      Transportation, prepared statement of......................    62
    McClure, David, vice president for E-Government, Council for 
      Excellence in Government, prepared statement of............    89
    Nelson, Kim, Chief Information Officer, Environmental 
      Protection Agency, prepared statement of...................    69
    Putnam, Hon. Adam H., a Representative in Congress from the 
      State of Florida, prepared statement of....................     5
    Puvvada, Venkatapathi, Unisys Chair, Enterprise Architecture 
      Shared Interest Group, Industry Advisory Council, prepared 
      statement of...............................................    97
    Wells, Raymond B., chief technology officer, IBM Federal, 
      vice president, Strategic Transformations for IBM Software 
      Group, Application Integration & Middleware Division [AIM], 
      IBM Corp, prepared statement of............................   121

 
 FEDERAL ENTERPRISE ARCHITECTURE: A BLUEPRINT FOR IMPROVED FEDERAL IT 
 INVESTMENT MANAGEMENT AND CROSS-AGENCY COLLABORATION AND INFORMATION 
                                SHARING

                              ----------                              


                        WEDNESDAY, MAY 19, 2004

                  House of Representatives,
   Subcommittee on Technology, Information Policy, 
        Intergovernmental Relations and the Census,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:35 p.m., in 
room 2154, Rayburn House Office Building, Hon. Adam Putnam 
(chairman of the subcommittee) presiding.
    Present: Representatives Putnam and Clay.
    Staff present: Bob Dix, staff director; John Hambel, senior 
counsel; Shannon Weinberg, professional staff member and deputy 
counsel; Juliana French, clerk; Felipe Colon, fellow; Kaitlyn 
Jahrling, intern; David McMillen, minority professional staff 
member; and Cecelia Morton, minority office manager.
    Mr. Putnam. A quorum being present, this hearing of the 
Subcommittee on Technology, Information Policy, 
Intergovernmental Relations and the Census will come to order. 
A little bit late, but we are in order. I apologize for the 
delay; we have just finished a long series of votes on the 
House floor.
    Good afternoon and welcome to the subcommittee's hearing 
entitled, ``Federal Enterprise Architecture: A Blueprint for 
Improved Federal IT Investment & Cross-Agency Collaboration and 
Information Sharing.''
    The purpose of this hearing is to provide congressional 
oversight on the progress being made by the Office of 
Management and Budget and the Federal agencies to develop and 
implement a Federal Enterprise Architecture. The subcommittee 
will also examine the progress, success, and continuing hurdles 
facing various agencies and departments in integrating their 
individual agency enterprise architecture with the FEA 
initiative.
    This hearing is a continuation of the series of oversight 
hearings conducted by the subcommittee during the 108th 
Congress to keep Federal Government agencies and decisionmakers 
aggressively focused on meeting the key goals of the E-
Government Act of 2002: greater accessibility to government by 
citizens and businesses; improving government efficiency and 
productivity; enhancing customer service; facilitating cross-
agency coordination; and tangible cost savings to taxpayers 
through the use of 21st century technology and proven ``best 
practices'' throughout the Federal Government.
    During the 1st session of the 108th Congress, this 
subcommittee focused a great deal of attention on the oversight 
of the Federal Government's E-Government element of the 
President's management agenda. With a commitment to an 
aggressive effort, the launch of the President's management 
agenda in August 2001 established a strategy for transforming 
the Federal Government in a manner that produces measurable 
results that matter in the lives of the American people.
    One of the five components of the PMA is Electronic 
Government, intended to utilize the power and creativity of 
information technology to produce a more citizen-centric 
government, as well as one that is more efficient, productive, 
and cost-effective on behalf of the taxpayers. E-Government 
provides a platform to establish cross-agency collaboration and 
a rapid departure from a stovepipe approach to government 
operations to an approach that facilitates coordination, 
collaboration, communication, and cooperation.
    With Federal Government expenditures on IT products and 
services projected to close in on $60 billion in fiscal year 
2005, the Federal Government will be the largest IT purchaser 
in the world. For too long, and even continuing in some places 
today, individual agencies have pursued their own IT agendas 
that focus solely on mission rather than emanating from a 
commitment to customer service or sound business processes. 
Without a system of checks and balances built into the 
investment process to compare IT needs with mission goals, the 
potential for waste is great.
    As a first step to a meaningful coordination of IT 
expenditures governmentwide, Congress passed the Clinger-Cohen 
Act of 1996, which included the Information Technology 
Management Reform Act and the Federal Acquisition Reform Act. 
This legislation sets forth requirements for Federal Government 
IT investment management decisionmaking and corresponding 
responsibility. It requires agencies to link IT investments to 
agency strategic planning, including the linkage to an 
enterprise architecture.
    Under Clinger-Cohen, each individual Federal Government 
agency must create and implement an enterprise architecture. An 
EA is a tool that defines the structure of any activity or 
mission within a single organization or across multiple 
organizations. It allows organizations to then apply IT 
resources to accomplish those activities identified. An EA also 
helps an organization identify the relationships between 
business operations and the underlying infrastructure and 
applications that support those operations. The purpose of the 
development of agency EAs is to facilitate cross-agency 
analysis of the business or purpose of government and to make 
possible the identification of duplicative investments, gaps, 
and prospects for cross-agency collaboration. The goal, as with 
all e-Gov initiatives, is to make the Federal Government more 
efficient and customer-focused.
    An enterprise architecture, developed and implemented based 
on the FEA framework, is an essential tool in guiding IT 
investments. A recent GAO study reports that ``that investing 
in IT without defining these investments in the context of an 
architecture often results in systems that are duplicative, not 
well integrated, and unnecessarily costly to maintain and 
interface.''
    While the utility of EAs in the Federal Government is 
promising, the progress of the Federal Government in completing 
the agency EA initiative is less than promising. In 2001 and 
2003, GAO assessed the progress of agencies' efforts to develop 
and implement EAs. In 2003, overall, GAO found the state of EA 
governmentwide is not mature, with approximately 79 percent of 
agencies at stage 1 of GAO's five-stage assessment framework 
and 21 percent were at stage 2. Only one agency, the Executive 
Office of the President, reached stage 5, the final stage of 
maturity.
    The E-Government Act of 2002 makes oversight of the 
agencies' EA efforts the responsibility of OMB's Administrator 
of E-Government and Information Technology. As a result of a 
combination of OMB's oversight responsibilities under the E-Gov 
Act of 2002 and the disappointing results of GAO's 2001 
governmentwide EA maturity assessment, OMB identified a need 
for a common framework for agencies to use in facilitating the 
EA effort. OMB cited the lack of a Federal EA as an impediment 
to achievement of the e-Government initiatives. So OMB began 
work on creating the FEA in 2002. This effort appears to be 
initially successful as a tool for recognizing commonalities 
and inefficiencies. OMB used the FEA during its review of the 
agency's 2004 budget submissions and found numerous common 
government functions and consequently numerous redundant 
efforts in spending. Out of those numerous common functions, 
OMB selected five core government functions and created the 
next phase of the e-Government initiative. This new phase, 
called the Lines of Business Initiative, specifically targets 
duplicative effort in spending. Despite this development, I 
still find cause for concern. According to a November 2003 GAO 
report, the self-reported costs by agencies in developing their 
individual EAs are close to $600 million. Those same agencies 
report more than $805 million will be necessary to complete 
their EAs. What the vast majority of government agencies' EA 
maturity assessed at the stage 1 level, we still have a long 
way to go before we fully realize the benefits of effective EA 
management. In the course of this hearing, my hope is that we 
will be able to determine the anticipated cost savings in light 
of the significant investment already made in the efforts to 
develop EAs governmentwide.
    Today's hearing is an opportunity to examine both the 
progress and success of OMB's FEA initiative as well as explore 
the obstacles faced both by agencies and departments in 
integrating their EAs into the FEA. As we have heard in 
previous hearings, many of the impediments are cultural and 
people-based, rather than being attributable to the technology 
itself or available resources. Case in point, in GAO's 2003 
assessment of governmentwide EA efforts, more agencies reported 
a lack of agency executive understanding of EA and the scarcity 
of skilled architecture staff as significant challenges than 
was reported in 2001.
    I eagerly look forward to the testimony of our 
distinguished panel of leaders in various agencies in an 
industry who will also give us the opportunity to demonstrate 
the progress that has been made thus far with the FEA 
initiative, while acknowledging the magnitude of the challenge 
that lies ahead.
    Today's hearing can be viewed live via Webcast by going to 
reform.house.gov and clicking on the link ``Live Committee 
Broadcast.''
    [The prepared statement of Hon. Adam H. Putnam follows:]

    [GRAPHIC] [TIFF OMITTED] T6944.001
    
    [GRAPHIC] [TIFF OMITTED] T6944.002
    
    [GRAPHIC] [TIFF OMITTED] T6944.003
    
    Mr. Putnam. I want to welcome the distinguished ranking 
member from Missouri who has been a partner in these oversight 
efforts, Mr. Clay. I recognize you for your opening remarks.
    Mr. Clay. Thank you, Mr. Chairman. Thank you for calling 
this hearing, and I want to thank the witnesses for appearing 
before us today.
    The implementation of enterprise architectures throughout 
the agency community has altered the methods employed by the 
Government beyond what used to be little more than the 
procurement and maintenance of computers and software. That 
concept, however, became outdated as the Government sought to 
integrate both business functions and agency goals with 
information technology. By serving as a blueprint for 
integration among an agency's core components, enterprise 
architectures soon enabled an agency to improve its services by 
optimizing its performance.
    It did not take long for Congress to determine that such 
efficiency would prove beneficial in both economic and 
qualitative terms. Through legislative efforts such as the 
Paperwork Reduction Act, the Clinger-Cohen Act, and the E-
Government Act, Congress established a framework for agencies 
to facilitate effective management of enterprise architectures 
governmentwide. Along with the efforts of the CIO Council and 
OMB's Federal Enterprise Architecture Program Management 
Office, the Government has successfully laid a foundation for 
effective coordination among agencies for business operations, 
information flow, and IT investment management.
    I remain concerned, however, that the agency community is 
not meeting all of its obligations for effectively managing the 
development and utilization of enterprise architectures, as 
only half of all agencies are meeting such standards according 
to GAO. Further, there seems to be no improvement in the number 
of agencies performing a full complement of management 
practices for the effective oversight of architectures. If the 
Federal Government is to continue to appropriate its annual $60 
billion investment in IT systems, we must demand better 
implementation and management practices for enterprise 
architectures throughout the agency community.
    I look forward to our discussion today and ask that my 
statement be submitted for the record.
    [The prepared statement of Hon. Wm. Lacy Clay follows:]

    [GRAPHIC] [TIFF OMITTED] T6944.004
    
    [GRAPHIC] [TIFF OMITTED] T6944.005
    
    Mr. Putnam. Without objection.
    We will move directly to the testimony. If all the 
witnesses and any of your supporting cast who will be providing 
you answers would please rise and raise your right hands for 
the administration of the oath.
    [Witnesses sworn.]
    Mr. Putnam. Note for the record that all of the witnesses 
responded in the affirmative.
    I would like to recognize our first witness, Ms. Karen 
Evans. On September 3, 2003, Karen Evans was appointed by 
President Bush to be Administrator of the Office of Electronic 
Government and Information Technology at the Office of 
Management and Budget. Prior to joining OMB, Ms. Evans was 
Chief Information Officer at the Department of Energy, and 
served as vice chairman of the CIO Council, the principal forum 
for agency CIOs to develop IT recommendations. Prior to that 
she served at the Department of Justice as Assistant and 
Division Director for Information System Management. She is a 
frequent guest of this subcommittee.
    We are delighted to have you. Welcome, Ms. Evans. You are 
recognized for your 5-minute statement.

STATEMENTS OF KAREN S. EVANS, ADMINISTRATOR OF E-GOVERNMENT AND 
   INFORMATION TECHNOLOGY, OFFICE OF MANAGEMENT AND BUDGET; 
RANDOLPH C. HITE, DIRECTOR, INFORMATION TECHNOLOGY ARCHITECTURE 
 AND SYSTEMS, U.S. GENERAL ACCOUNTING OFFICE; DANIEL MATTHEWS, 
 CHIEF INFORMATION OFFICER, DEPARTMENT OF TRANSPORTATION; AND 
KIM NELSON, CHIEF INFORMATION OFFICER, ENVIRONMENTAL PROTECTION 
                             AGENCY

    Ms. Evans. Good afternoon, Mr. Chairman and Ranking Member 
Clay. Thank you for inviting me to speak with you today and 
discuss the administration's Federal Enterprise Architecture 
Program.
    The FEA provides a strategic model and a plan to improve 
the Federal information technology investment management, 
create cross-agency collaboration, and enhance governmentwide 
information sharing. My remarks will provide an update on key 
enterprise architecture developments across the Federal 
Government specifically focusing on the value of the FEA 
program and its support of individual agency EA initiatives in 
using IT to achieve results for the American citizens.
    The administration is working to ensure the Government as a 
whole and the agencies in particular integrate resource 
decisionmaking with discipline planning activities to yield 
better program performance in managing our IT resources and 
assets, and EA is the information asset that defines the 
mission program, the information and technologies needed to 
perform the mission, and the transitional processes for 
implementing new technologies when needs change.
    The goals of the Federal Enterprise Architecture are to 
enable the Federal Government to identify opportunities to 
leverage technology and alleviate redundancy, or to highlight 
where agency overlap limits the value of information technology 
investments; facilitate horizontal, cross-Federal, and vertical 
Federal, State, local, and tribal integration of IT resources; 
establish a direct relationship between IT and mission program 
performance; and support citizen-centered customer-focused 
government to maximize IT investments to better achieve mission 
outcomes.
    Whether at the Federal, agency, or program level, a mature 
and continually utilized EA helps in the management of 
resources by plainly organizing the enterprise IT assets within 
an understandable strategic framework. This enables agency 
leaders to develop a clear road map for future investments 
while ensuring a more effective IT portfolio supports the 
delivery of faster and better program performance.
    In addition to supporting agencies' EA efforts, the Federal 
Government is using the FEA to identify numerous cross-agency 
opportunities to cut costs and increase efficiencies through 
sharing common business functions and technology applications. 
Specifically, we are enhancing the FEA to maximize the 
performance of the Federal Government's $60 billion IT 
portfolio by: identifying opportunities to develop common 
solutions within Lines of Business [LOBs] resulting in 
increased government effectiveness and taxpayer savings; 
linking agency performance to strategic IT investment decisions 
through agency enterprise architectures; and using EA-related 
budget requirements to ensure security and privacy 
considerations are integrated as agencies make strategic IT 
investment choices.
    The FEA framework has yielded results demonstrating a new 
ability for the Federal Government to drive collaboration and 
accelerate consolidation of redundant activities, saving 
taxpayer dollars. One example of this is the concept of Lines 
of Business [LOBs], a functional representation of the overall 
business requirements of government. In response to our 
preliminary review of fiscal year 2004 and 2005 FEA budget 
data, OMB launched a governmentwide effort in February 2004 to 
analyze the first set of LOB initiatives. The LOB Task Forces 
are now using EA-based principles and proven best practices to 
identify business-driven common solutions to transform 
government by breaking down traditional agency silos and 
increasing collaboration. The FEA structure and analysis are 
foundational to the LOB initiatives. This activity provides a 
glimpse of how we can use the FEA as transformational framework 
to accelerate the delivery of services and truly achieve the 
21st century e-Government. Implementation of these LOB common 
solutions will begin in fiscal year 2005, leading to 
significant improvements in process efficiency, system 
interoperability, and data sharing.
    OMB has developed an EA Assessment Framework to help 
agencies improve their EA programs and benefit from the results 
of using EA as a strategic planning tool. OMB's EA Assessment 
Framework is designed to help each agency assess the capability 
of its EA program and is intended to compliment the GAO EA 
management maturity framework which assesses the EA program 
capacity.
    The EA Assessment Framework will be used annually by OMB 
and the agencies to identify opportunities and facilitate the 
discussion of EA performance and use. This ongoing 
collaboration between OMB and the agencies removes the 
discussion of EA from the current budget cycle and allows us to 
engage when results can be used by agencies during the 
development of their request instead of after the fact when 
they submit the information to OMB.
    OMB continues helping agencies align their efforts with the 
FEA program, and toward this goal Federal Enterprise 
Architecture Management System [FEAMS], is ready for agencies 
to use for the fiscal year 2006 budget process. This will be 
the first time ever that agencies will be able to use this Web-
based tool to look across the Government and identify potential 
collaboration partners and share technology components as they 
develop their own IT investments.
    As part of our commitment to strengthen our agency 
security, OMB and the CIO Council are developing the FEA 
Security and Privacy Profile, an overlay to assist Federal 
managers in discovering early on where risk exposures exist, 
the potential range for controls needed to address such risks, 
and the potential cost of those controls. The FEA program is 
helping agencies to identify, understand, and integrate 
security and privacy issues in the earliest stages of planning 
and development, promoting the efficient operation, and 
preventing unintended consequences which may require costly 
corrections at the end of the development.
    In short, we are looking to evolving the FEA reference 
models and further enhancing resources such as FEAMS and the EA 
Assessment Framework for agencies. OMB seeks to develop the 
Government-wide practice of enterprise architecture so that 
agencies can proactively collaborate to make investment 
decisions prior to submitting their budgets to OMB.
    In the longer term, the administration will continue to 
create opportunities for transforming government delivery of 
service to the citizens, working to fully integrate performance 
measurement concepts throughout the FEA reference models to 
ensure agencies are considering outcomes in all aspects of IT 
portfolio planning.
    The administration will continue to collaborate with 
agencies and with Congress, State, local, and tribal 
governments to ensure the promise of the enterprise 
architecture is fully realized across government. I look 
forward to working with you on these matters and will be happy 
to take questions.
    [The prepared statement of Ms. Evans follows:]

    [GRAPHIC] [TIFF OMITTED] T6944.006
    
    [GRAPHIC] [TIFF OMITTED] T6944.007
    
    [GRAPHIC] [TIFF OMITTED] T6944.008
    
    [GRAPHIC] [TIFF OMITTED] T6944.009
    
    [GRAPHIC] [TIFF OMITTED] T6944.010
    
    [GRAPHIC] [TIFF OMITTED] T6944.011
    
    Mr. Putnam. Thank you, Ms. Evans.
    Our next witness is Mr. Randolph Hite. Mr. Hite is the 
Director of Information Technology Architecture and Systems 
Issues at the U.S. General Accounting Office. During his 25 
year career with GAO, he has directed reviews of major Federal 
investments in information technology such as IRS's tax systems 
modernization and DOD's business systems modernization. Mr. 
Hite is a principal author of several information technology 
management guides such as GAO's Guide on System Testing, the 
Federal CIO Council Guide on Enterprise Architectures, and 
GAO's Enterprise Architecture Management Maturity Framework. He 
frequently testifies before Congress on such topics and is an 
ex-officio member of the Federal CIO Council. He has received a 
number of awards throughout his career, including being a 2003 
Federal 100 Award winner.
    Welcome to the subcommittee. You are recognized for 5 
minutes.
    Mr. Hite. Thank you, Mr. Chairman. First let me commend you 
for holding this hearing. You know, it wasn't too long ago that 
enterprise architecture in the Federal Government was a lot 
like what Mark Twain said about the weather: everybody talks 
about it, but nobody does anything about it. Fortunately, this 
has changed in a lot of corners of the Government, and I am 
cautiously optimistic about what the future holds in this area.
    Nevertheless, we are clearly not where we need to be when 
it comes to developing and using enterprise architectures 
across the entire Federal Government, as your statement 
recognized. What I would like to do is make two brief points, 
one dealing with the Federal Enterprise Architecture [FEA], and 
one dealing with Federal agencies' enterprise architecture 
maturity.
    Point one, OMB is making progress on the FEA, but it is 
still a work in process, and what I mean by that is it is still 
evolving both in terms of content and in use. In my view, this 
evolution is not a negative, but rather a reasonable and 
expected phenomenon given the broad-based purpose and scope of 
such a framework. For example, the FEA is intended to 
facilitate the development of agency enterprise architectures, 
no trivial feat in and of itself; promote the reuse of common 
IT components across agencies; and identify opportunities for 
interagency collaboration on common IT solutions. We support 
these goals and believe that the FEA can be an integral part of 
a transparent means to accomplish this.
    Now, having said this, we nevertheless have questions about 
the FEA at this juncture, which, if addressed, we believe will 
increase the understanding about the tool and thus facilitate 
its extension and use. One question is should the FEA be 
represented as an enterprise architecture. Our reading of it 
suggests it is more akin to a classification scheme or a 
taxonomy, rather than a true enterprise architecture.
    A closely related question is whether the expected 
relationship between the agencies' enterprise architectures and 
the FEA have been clearly defined. In this regard, OMB talks 
about agencies mapping and aligning their architectures with 
the FEA, but what this really entails is not well defined, and 
such ambiguity leads to assumptions which in turn increases the 
risk that expectations don't get met, and this is particularly 
true in the enterprise architecture arena.
    Still another question is how will security be introduced 
into the FEA. OMB has stated that it plans to address security 
in the FEA through a security profile, but our reading of the 
FEA shows that this profile is not yet part of the FEA. And, in 
my view, whether we are talking about enterprises or we are 
talking about systems, security should permeate every element 
of the architecture and shouldn't be an afterthought, again, 
whether we are talking about systems or enterprises.
    Point two, like the FEA, enterprise architecture programs 
in the individual agencies are still maturing. Using our 
framework as a benchmarking tool, as you alluded to, Mr. 
Chairman, we reported in September 2003 that Federal agencies' 
collective progress toward effective management of 
architectures was limited: 22 agencies increasing their levels, 
24 agencies decreasing their levels, and 46 agencies remaining 
basically the same. We further reported that only 20 of the 
agencies that we looked at had established the foundation 
needed for effective enterprise architecture when you compare 
them against our most recent maturity model, which raised the 
bar on what constitutes effective architecture management. This 
governmentwide state of affairs can be attributed to several 
longstanding challenges which were the basis of some 
recommendations that we made to OMB in 2001, and then we 
reiterated those recommendations in 2003.
    In summary, development and use of architectures in the 
Federal Government are maturing, but they are not mature. 
Progress is being made, but the progress is uneven and much 
remains to be accomplished. I will say the recent steps by OMB 
and the CIO Council to assume stronger leadership roles in this 
area are encouraging signs; however, hard work lies ahead to 
clarify and evolve the FEA and to ensure that well-managed 
architecture programs are actually established and executed, 
underscore executed, across the Government.
    As our maturity framework emphasizes, the goal is not 
merely to check the box on some form, but rather to make 
enterprise architecture an integral and useful part of 
informing government transformation and achieving breakthrough 
performance. That is the end game.
    Mr. Chairman, that concludes my testimony. I would be happy 
to answer any questions you have.
    [The prepared statement of Mr. Hite follows:]

    [GRAPHIC] [TIFF OMITTED] T6944.012
    
    [GRAPHIC] [TIFF OMITTED] T6944.013
    
    [GRAPHIC] [TIFF OMITTED] T6944.014
    
    [GRAPHIC] [TIFF OMITTED] T6944.015
    
    [GRAPHIC] [TIFF OMITTED] T6944.016
    
    [GRAPHIC] [TIFF OMITTED] T6944.017
    
    [GRAPHIC] [TIFF OMITTED] T6944.018
    
    [GRAPHIC] [TIFF OMITTED] T6944.019
    
    [GRAPHIC] [TIFF OMITTED] T6944.020
    
    [GRAPHIC] [TIFF OMITTED] T6944.021
    
    [GRAPHIC] [TIFF OMITTED] T6944.022
    
    [GRAPHIC] [TIFF OMITTED] T6944.023
    
    [GRAPHIC] [TIFF OMITTED] T6944.024
    
    [GRAPHIC] [TIFF OMITTED] T6944.025
    
    [GRAPHIC] [TIFF OMITTED] T6944.026
    
    [GRAPHIC] [TIFF OMITTED] T6944.027
    
    [GRAPHIC] [TIFF OMITTED] T6944.028
    
    [GRAPHIC] [TIFF OMITTED] T6944.029
    
    [GRAPHIC] [TIFF OMITTED] T6944.030
    
    [GRAPHIC] [TIFF OMITTED] T6944.031
    
    [GRAPHIC] [TIFF OMITTED] T6944.032
    
    [GRAPHIC] [TIFF OMITTED] T6944.033
    
    [GRAPHIC] [TIFF OMITTED] T6944.034
    
    [GRAPHIC] [TIFF OMITTED] T6944.035
    
    [GRAPHIC] [TIFF OMITTED] T6944.036
    
    [GRAPHIC] [TIFF OMITTED] T6944.037
    
    [GRAPHIC] [TIFF OMITTED] T6944.038
    
    [GRAPHIC] [TIFF OMITTED] T6944.039
    
    [GRAPHIC] [TIFF OMITTED] T6944.040
    
    [GRAPHIC] [TIFF OMITTED] T6944.041
    
    [GRAPHIC] [TIFF OMITTED] T6944.042
    
    [GRAPHIC] [TIFF OMITTED] T6944.043
    
    [GRAPHIC] [TIFF OMITTED] T6944.044
    
    [GRAPHIC] [TIFF OMITTED] T6944.045
    
    [GRAPHIC] [TIFF OMITTED] T6944.046
    
    [GRAPHIC] [TIFF OMITTED] T6944.047
    
    [GRAPHIC] [TIFF OMITTED] T6944.048
    
    [GRAPHIC] [TIFF OMITTED] T6944.049
    
    Mr. Putnam. Thank you very much, sir.
    Our next witness is Mr. Daniel Matthews. Mr. Matthews was 
appointed Chief Information Officer for the U.S. Department of 
Transportation in March 2003. As CIO, he serves as the 
principal advisor to the secretary on matters involving 
information resources and information services management, and 
provide leadership in using IT to achieve the Department's 
goals and objectives. Prior to his appointment at DOT's CIO, 
Mr. Matthews served as senior vice president of Savantage 
Financial Services from July 2002, where he was responsible for 
efforts to modernize the financial management systems of a 
number of Federal agencies. He spent most of the previous 22 
years at Lockheed Martin, most recently as vice president.
    You are recognized for 5 minutes. Welcome to the 
subcommittee.
    Mr. Matthews. Mr. Chairman and members of the committee, 
thank you for the opportunity to appear today to discuss the 
Department of Transportation's implementation of the Federal 
Enterprise Architecture Program.
    The Department of Transportation Office of the CIO has 
operational responsibility for departmental network and 
communications infrastructure, as well as providing shared 
services for the Office of the Secretary and several operating 
agencies currently engaged in the Department's Information 
Technology services consolidation.
    It is my observation and experience at DOT that the Federal 
Enterprise Architecture initiative is working well to focus on 
business-based, results-oriented, information technology best 
practice investments, their common infrastructure and external 
information services delivery. This drive is beginning to 
deliver results that will expedite our ability to improve cyber 
security, mine data, enhance information sharing, eliminate 
redundancies, and to document our IT costs and performance.
    Our enterprise architecture provides a clearer 
understanding of where IT dollars are being spent, what 
technologies support our business processes, who is responsible 
for and impacted by process and technology changes, and what 
technology standards we should employ today as well as in the 
future.
    The DOT's enterprise architecture can be described as a 
federated model composed of smaller segments that are distinct 
areas of mission activity carried out from within each of the 
Department's operating agencies, yet they are all linked to the 
overall DOT enterprise architecture. It de-emphasizes 
organizational structure and shifts that emphasis to DOT 
missions, in particular safety and mobility. It promotes an 
end-to-end consideration of business process needs across the 
operating agencies, a focus that is at the heart of Clinger-
Cohen Act compliance at Department of Transportation. 
Implementing architectural segments is important because the 
large scope of the DOT enterprise makes it difficult to 
effectively fund and successfully manage a large number of 
enterprise architecture activities simultaneously. By taking a 
phased approach to the development of our enterprise 
architecture, the Department is able to determine a prioritized 
sequence of activities that takes into account urgency, 
maturity of solution, and stakeholder support for future 
phases. This sequencing approach also improves the likelihood 
of successful implementations of IT solutions and it optimizes 
IT spending across the Department.
    Examples of the DOT's emphasis on enterprise architecture 
begin with my own CIO organization, where an Enterprise 
Architecture Program Management Office team is dedicated to 
full-time leadership and continuity in the development, 
implementation, and maintenance of a single DOT enterprise 
architecture.
    A Departmental Investment Review Board, chaired by the 
Department's Deputy Secretary, reviews proposed IT investments 
from across DOT and decides their appropriate disposition based 
on project assessments performed using standardized investment 
review criteria, including enterprise architecture alignment.
    The Department's Architectural Review Board is the 
governance body charged with evaluating and recommending 
changes to the DOT enterprise architecture and ensuring that 
investments in IT comply with established departmental policies 
for enterprise architecture, capital planning, security 
standards and processes. The DOT's Enterprise Architecture 
Technology Reference Model provides the Architectural Review 
Board with information on specific technologies, hardware, and 
software used throughout the Department of Transportation 
enterprise. These activities reduce security vulnerabilities, 
they wean out duplicative IT spending within our operating 
agencies, and they hasten the delivery of successful IT 
solutions. When taken together, elements of this governance 
model gracefully implement the investment review requirements 
of the Clinger-Cohen Act.
    Building on our current efforts at DOT, we recently 
published an updated version of our modernization blueprint and 
developed several documents to aid in inculcating enterprise 
architecture understanding and use.
    The Federal Enterprise Architecture implementation, while 
viewed as fairly successful thus far, does have its issues. In 
several instances the time allowed between budgetary guidance 
and/or changes and expected agency execution has been 
constricted. Other expectations, such as a full-time program 
manager for each initiative, is unrealistic for many small 
agencies with limited staff. These shortcomings are being 
reviewed and the Federal CIO Council is working with OMB to 
ensure a workable Federal Enterprise Architecture process is 
rapidly adopted and implemented.
    This concludes my testimony. Again, I thank you for the 
opportunity to discuss this important topic and, Mr. Chairman, 
I look forward to answering any questions you may have. Thank 
you.
    [The prepared statement of Mr. Matthews follows:]

    [GRAPHIC] [TIFF OMITTED] T6944.050
    
    [GRAPHIC] [TIFF OMITTED] T6944.051
    
    [GRAPHIC] [TIFF OMITTED] T6944.052
    
    [GRAPHIC] [TIFF OMITTED] T6944.053
    
    [GRAPHIC] [TIFF OMITTED] T6944.054
    
    Mr. Putnam. Thank you very much.
    Our next witness is Kim Nelson. In November 2001, Ms. 
Nelson was sworn in as Assistant Administrator for 
Environmental Information and CIO of the Environmental 
Protection Agency. Prior to joining EPA, Ms. Nelson served the 
Commonwealth of Pennsylvania for 22 years. During her career, 
she worked in the Senate of Pennsylvania, the Public Utility 
Commission, and the Departments of Aging and Environmental 
Protection. For the past 14 years Ms. Nelson held a number of 
positions in the Pennsylvania Department of Environmental 
Protection. She was the first Director of the Program 
Integration and Effectiveness Office, the first executive to 
hold the position of CIO, and most recently served as Executive 
Deputy Secretary. She was primarily responsible for managing 
department-wide projects with a goal toward improving processes 
and integrating programs and functions. She was recognized for 
outstanding service on three occasions during her career with 
the Department of Environmental Protection.
    Welcome to the subcommittee. You are recognized.
    Ms. Nelson. Thank you, Chairman Putnam, for the opportunity 
today to testify about the progress being made by OMB and 
Federal agencies to develop and implement the Federal 
Enterprise Architecture, and some of the challenges that the 
agencies are facing in aligning their own architectures with 
that of the Federal enterprise.
    Today my testimony is going to reflect my dual role, as you 
mentioned, as CIO at the Environmental Protection Agency, but 
also as Co-Chair of the Federal CIO Council's Architecture and 
Infrastructure Committee.
    We live in a point and click culture that has incredibly 
high expectations for government. In the past, when governments 
wanted to improve service delivery, the typical response was to 
move some boxes on an organization chart and the reassignment 
of people. But today it is possible to improve our government 
services through the alignment of our information systems by 
looking at our common business functions from across different 
organizations.
    The FEA provides that ability, the ability to look across 
the Federal departments, the agencies, to look at their 
missions, to look at their strategic goals, their programs, 
their data, and their information technology, and using it as a 
planning tool which allows the Federal Government to take 
advantage of the IT revolution and ensure the responsible 
spending of over $60 billion of the Federal IT budget. It is 
the one blueprint that will lead to a more efficient delivery 
of services and is key to the citizen-centric government that 
we all seek.
    In the last year I would say I have seen what I consider to 
be very significant progress in the implementation of the FEA. 
OMB has completed work on all major components of the FEA 
reference model and they are giving the Federal agencies a 
common way to look at their business functions and align our 
investments appropriately. EPA, like a lot of other Federal 
agencies, is now mapping our own architecture and our own 
blueprint to those in IT investments under the Federal model.
    A couple of other examples of some progress are the CIO 
Council's development of a reusable component strategy. That 
strategy will enable an IT service built by one agency to be 
used by others, and the development of a draft security and 
privacy profile.
    The 24 e-Gov initiatives and the five Lines of Business are 
proving to be what I consider to be real-life laboratories that 
highlight for OMB and the Federal CIOs the critical Federal 
Architectural design decisions needed to achieve both 
information integration and information sharing throughout all 
levels of government.
    As for some of the challenges, I think your charts up there 
speak well to some of those we are facing. The General 
Accounting Office recently reported that most of the Federal 
agencies are still in the development stages of building their 
architectures. To quickly increase that capacity, OMB and the 
CIO Council have created a Chief Architects Forum, where all 
the chief architects can leverage their efforts in addressing 
the specific strategic management and operational challenges 
that were noted in that report.
    Frankly, I think our challenge with enterprise architecture 
is that it is still a relatively new discipline to a lot of 
people, and like all new disciplines, it is going to require an 
acculturation process. Each Federal agency has to integrate 
enterprise architecture into the fabric of its strategic 
management culture before that agency can begin to eliminate 
redundancies, target citizen services, and integrate the 
information for improved decisionmaking. It is not an IT tool, 
it has to become part of the strategic management process of 
the organization; and that is not an easy process to change.
    Finally, I would like to address the issue of 
interoperability as it relates to the Federal Enterprise 
Architecture and networks that are currently being built by 
governments.
    Within EPA, we are using the enterprise architecture to 
design and implement services for environmental decisionmakers 
across the country. Approximately 95 percent of all of the 
information in EPA's major systems come from State and tribal 
governments. With that being the case, and also understanding 
that all of our major air, water, and waste laws are heavily 
delegated to the States, we have to work with those partners on 
the exchange of information. This practical business reality 
drives the approach we are taking to enterprise architecture. 
We have to have a collaborative effort with our States and 
tribes to implement common data standards; we have to implement 
something that we have called our Central Data Exchange for 
reporting purposes; and we are designing and implementing our 
environmental exchange network.
    This network, which is becoming a reality as we speak, we 
have 10 States with operational nodes on the network, is due in 
large part to the $25 million State and tribal grant program 
begun by President Bush and funded by Congress the last 3 
years. Our strong partnership with our State co-regulators will 
continue to drive our innovation at EPA and is going to require 
EPA to work not just vertically with environmental agencies, 
but horizontally. We have to work across the Federal 
Government, particularly with health and resource agencies, to 
better demonstrate results in protecting human health and 
safeguarding the natural environment.
    So I thank you for the opportunity to appear here today, 
both representing EPA as well as the Federal CIO Council's 
Architecture Committee.
    [The prepared statement of Ms. Nelson follows:]

    [GRAPHIC] [TIFF OMITTED] T6944.055
    
    [GRAPHIC] [TIFF OMITTED] T6944.056
    
    [GRAPHIC] [TIFF OMITTED] T6944.057
    
    [GRAPHIC] [TIFF OMITTED] T6944.058
    
    [GRAPHIC] [TIFF OMITTED] T6944.059
    
    Mr. Putnam. Thank you all for your opening comments.
    Ms. Evans, GAO reports in its testimony that OMB was unable 
to comment on the status and development of the security 
profile the FEA component is intended to address IT security. 
What is the status of the security profile and what are the 
development plans?
    Ms. Evans. Currently, we are working with the AIC off of 
the CIO Council to develop those profiles, and we have a plan, 
and Kim can probably speak more specifically to the due dates 
where these plans in the profiles will come forward to the 
Council and then come forward to OMB, so I would yield to her 
on the specific dates of those profiles.
    But I would like to comment on one thing, and there was a 
lot of discussion going forward, and as the vice chair of the 
CIO Council when these efforts were going on, while we were 
talking to OMB, we specifically asked not to have a specific 
security reference model. And the reason why we asked not to 
have that was because we didn't want to have security 
segregated from all the models. What we wanted to ensure was 
that we had worked so hard and came so far in ensuring that 
cyber security and overall risk is being looked at as each 
investment goes forward and how you manage your program 
overall, that we had concerns as a council that if we had a 
separate model, that we may start down the path again of 
separating it without always thinking about it going forward. 
So that is why we are taking the approach of having it be 
overlaid across the framework and it will go through all the 
models that way.
    Mr. Putnam. Ms. Nelson.
    Ms. Nelson. The committee that is working on that security 
and privacy profile is actually meeting as we speak to review 
some of the most recent comments that have been received. We 
hope that document will be available before the end of the 
summer, and once that is out and is in use, we will start 
working on another revision.
    The one thing I want to point out about that profile, what 
is so important about it, it really does provide the 
opportunity for agencies to start thinking about security on 
day 1 and privacy on day 1 versus thinking about security and 
privacy when you are ready to roll out a system or once you are 
into the later design stages.
    Mr. Putnam. Mr. Hite, do you wish to add anything or 
respond to the response?
    Mr. Hite. I offer a couple thoughts. I agree that security 
is part and parcel of each of those reference models, it is not 
a standalone item, and it needs to be interwoven explicitly 
into those models.
    I think there are lessons learned out there. I know IRS 
went through the same process where they found it useful, after 
trying to deal with the security elements of their enterprise 
architecture, to explicitly extract security as a separate 
visible view into the architecture so that they would in fact 
be able to make informed decisions about how complete and 
correct they were in defining their security profile.
    So I think there are lessons learned out there in terms of 
how to proceed in introducing security into the architecture. 
But I would reiterate what I said in my oral statement, that it 
is not something that is done after the fact and you try to lay 
on top of it. Rather it is something that is done in concert 
with defining the business and the data and the technical, etc. 
elements of the architecture.
    Mr. Putnam. The relationship between the development of the 
FEA and the agency EA efforts presents something of a chicken 
and egg dilemma. The FEA is designed to provide a framework to 
facilitate the adoption of standards into common Lines of 
Business. Agencies were required to develop their own EAs prior 
to work on the FEA began to identify potential opportunities 
for standardization. How is OMB mediating these competing 
influences?
    Ms. Evans. Well, actually, I have the opportunity to talk 
from both sides of the fence on this particular issue. Coming 
from an agency where the work had already started, because 
having an enterprise architecture is not a new requirement that 
the agencies were to have; they were to have modernization 
blueprints. We were supposed to have all of these things going 
forward. But as we continue to evolve, and I think that it has 
been clear and it has been said by all the distinguished 
members of the panel today, that this continues to evolve, and 
it is not like you finish the work and you are done and you 
move on. These things have to continue to evolve and the work 
has to continue to progress, and it is important that OMB now, 
in this new role that I am in, continues to provide the 
leadership through the framework and through this effort so 
that we can then ensure that the agencies' investments and the 
decisions that they are making support the outcomes that they 
intend for the overall programs of their departments. It isn't 
so much the IT itself, but how is the IT supporting the overall 
program outcomes?
    So we are working, and we continuously work, to improve the 
models and realign those, but also to continuously provide 
feedback to the agencies so that their ongoing efforts can 
align with what we are doing governmentwide as well.
    Mr. Putnam. The initial development of an EA is a huge 
investment in time, dollars, talent. Recognizing that the 
maintenance of an EA is an ongoing process, when might we 
expect to see some dividends returned on this investment?
    Ms. Evans. Well, I would argue that you are seeing them 
happen right now live, and the reason that I would argue that 
is that through the efforts and with the budget submissions 
that came in through 2004 and 2005, OMB had the opportunity to 
really analyze across the Government where they could see 
redundant investments or where it looked like agencies were 
going in a similar direction. That is now what we are calling 
the Lines of Business analysis. And so we have those Lines of 
Business going forward. We know how much the agencies intended 
to invest in that area, we know the numbers of investments that 
are in those areas, and so now what we are doing is going 
forward and saying this is an opportunity; ``you guys are all 
working in this same area here,'' ``let us come up with a 
common solution so that we can reduce the cost, make use from 
lessons learned, and be able to go forward with a common 
solution.'' So you are seeing it now.
    Do I have quantifiable benefits? The answer would be no 
because we haven't defined the common solution. We are targeted 
to do that in this upcoming month. We had sent out a request 
for information, and I am happy to say we got the submissions 
in and we have well over 100 submissions that came in 
responding to the Lines of Business in our questions on that 
and what is the best way for the Government to proceed. That 
analysis is going on now, and when we come to what the common 
solution will be, we will have projected benefits that we 
believe we will be able to obtain.
    Mr. Putnam. Do you know how much we have spent on FEA 
efforts so far?
    Ms. Evans. It is outlined on the Exhibit 53s, but we 
actually have it. It is mixed in with the overall planning. I 
can get you that number and get back to you and give the number 
for fiscal year 2004 and 2005, if you would like, sir.
    Mr. Putnam. Please. And while we are talking about 2004 and 
2005, you raised this in your last response about some of the 
duplication of effort that was identified, how many duplicate 
investments were identified?
    Ms. Evans. OK, I have that for you. I do have that. OK, in 
fiscal year 2004 and 2005, we have the dollar amounts, but the 
top Lines of Business based on what we have done so far is 
there is a category called Information Technology Management, 
which includes our cross-agency investments. So the account 
that we have of investments there are 822 investments. 
Financial Management, which is one of the Lines of Business 
that we are currently looking at right now, we have 445 
investments in that area. The Knowledge, Creation and 
Management, which is another top Line of Business that we have 
identified through investments overall, there are 251.
    So we look at these and we say, OK, there is a lot of 
potential. When you start looking specifically at the ones that 
we have outlined, and looking forward and saying, OK, for Human 
Resources how many do we have in there, for investments we have 
89 Human Resources investments that showed up in the 2005 
budget. For Grants Management we have 36. So when we start 
looking at that and then we look at the new development dollars 
that are associated with each of those, for example, in Human 
Resources, with the 89 investments planned, there is planned 
new development dollars of $215 million associated with that, 
which means that there is a possibility that we should be doing 
things in a consolidated way that could reduce that 
implementation cost.
    From a general appearance, from the 50,000 foot view, when 
you come into OMB, from our perspective it looks like it is all 
duplicative, because when you start really looking at what is 
the business that an agency does, the core accounting types of 
functions, all agencies do core accounting; they have general 
ledgers, they produce financial statements. So from our 
perspective, from an OMB perspective, it all looks duplicative. 
However, when you have to start getting down into how does an 
agency manage from day to day, what are they doing, you have to 
then step back and really use this as the tool that it was 
intended: it is to start that discussion, it is to start 
delving down and doing the analysis. Is this one investment 
that was counted six times in a business case going across or 
is it truly six different investments within an agency? And 
that is one of the things that we have learned through the 
business cases and getting the information in from the business 
cases, is that we need to continuously give better guidance to 
the agencies so that we can then say, OK, this really is truly 
duplicative or, no, this is the one investment that was counted 
six times coming across and it is really a corporate, 
departmental knowledge management system that each agency is 
counting as they do their business case.
    So that is why we go out and we meet with the agencies. We 
have done the analysis, this high-level analysis, and we hand 
it back to the agency, and that is the assessment framework 
that we are doing. And we say from our viewpoint this is what 
it looks like. We are asking you now, through your budget 
cycle, through your spraying and your planning cycles and your 
capital investment plans, to look at these investments. Is it 
just a data issue or do you truly have that many duplicative 
systems? And if you do, this is your opportunity to do 
something about it.
    Mr. Putnam. How about gaps? Do you have a number on the 
gaps that were identified? In the 2004 and 2005 budget 
submissions, when you reviewed those, were there things that 
stood out as being common gaps that needed to be filled?
    Ms. Evans. We looked more, when we were doing the analysis, 
to what it appeared that agencies were investing in, not so 
much was there a big gap overall. I mean, we do know, for 
example, that EVMS project management types systems, we don't 
have those, so that was one and that was written into the 
scorecard so that could then ensure the investments going 
forward. But what we really are trying to do is get a handle on 
is this really a duplicative investment. And the other piece is 
if you have this service component, if you have this type of 
service that you are doing in your agency, can you leverage 
that now across with other partners, versus someone who says, 
oh, I am starting up a new system, and we have another one that 
looks very mature over here.
    So we have tried to ensure that collaboration is occurring 
among the agencies, so we haven't really looked at what gaps 
analysis, other than in our skills gaps, which GAO has brought 
up about chief architects and our overall human capital skill 
gaps of project management that we need.
    Mr. Putnam. Let's talk about the skill gap a little bit. A 
number of agencies, as Mr. Hite pointed out, reported there was 
a scarcity of skilled architecture staff. Have there been 
problems recruiting and retaining the skilled personnel to 
develop and implement EAs?
    We will start with Mr. Matthews.
    Mr. Matthews. At the Department of Transportation we have 
been blessed that we have two core architects; one is a 
gentleman serving on my staff, another comes to us from the 
FAA. And they have been spearheading inside the department the 
enterprise architecture requirements. They have been working 
with all of the operating agencies to bring them up to speed on 
the enterprise architecture process and also giving them some 
preliminary or primer type information on enterprise 
architecture and what it means to them on a day-to-day basis. 
But, by and large, in the market place there are few resources 
available to draw on for enterprise architecture. Additionally, 
as we bring resources into the Federal Government, their 
ongoing work over time has to be considered and how to keep 
their skills updated and upgraded with the current goings on in 
the marketplace.
    Thank you.
    Mr. Putnam. Ms. Nelson.
    Ms. Nelson. I concur.
    Mr. Putnam. What do you see as being the utility of an FEA 
as you set about developing your own agency's EA?
    Ms. Nelson. In EPA, we were one of the agencies that were 
working on our architecture before the FEA was in place, so 
what I see as the benefit of the FEA at this point in time is 
using it, as well as the new Federal Enterprise Architecture 
Management System that will be put in place, it provides an 
opportunity for the agency to get an early view of what work is 
being done in other Federal agencies. So where we might have 
opportunities for collaboration, both in terms of some of the 
products that we have developed that we might be able to roll 
out to other agencies to use, reusable components, like our 
Central Data Exchange, as well as looking at work that other 
agencies have done that might allow us to avoid our own 
significant investments.
    So using that new management system which will be available 
to agencies for the first time, you will be able to look across 
the Federal Government in an easy-to-use tool and see what kind 
of investments and projects are underway, and hopefully avoid 
earlier in the process, redundancies or duplication. OMB has 
been able to do that after submissions have been made. Like 
everything else, you want to get ahead of the curve and you 
want to be able to make those decisions earlier in the process 
rather than later.
    Mr. Putnam. Earlier in your testimony, Ms. Nelson, you 
referred to the Chief Architects Forum. They met for the first 
time in April of this year to identify the individuals 
responsible for their own agencies' EA efforts and discuss 
common concerns. The forum was convened by the CIO Council. 
What role is the Chief Architects Forum playing in the 
development of the FEA and what is the relationship between the 
forum and the CIO Council?
    Ms. Nelson. Some chief architects from throughout the 
Federal Government have been actively engaged in all aspects of 
the Federal Enterprise Architecture, and they have done that 
through the CIO Council's Architecture and Infrastructure 
Committee, of which I am the co-chair, only since December. 
When the most recent, I guess the third, GAO report came out, 
my colleague and my co-chair, John Gilligan, who is the CIO for 
Air Force, decided we needed to take a step back. As the co-
chairs of the Architecture Infrastructure Committee, we 
realized that the work plans we had for that committee for the 
next year may have been too aggressive if in fact most 
agencies, as GAO indicated, were still at stage 1. And one of 
the things we did was to say we really need a large forum, an 
opportunity for the chief architects to talk to one another.
    Before that forum was held in April, the chief architects 
from the agencies had never once been brought together. So with 
the forum and quarterly meetings now, they have an opportunity 
to discuss common issues, challenges, hurdles, solutions, best 
practices, and hopefully we can use that as an opportunity to 
work with GAO and say what are the most common--and Mr. Hite 
was at that introductory meeting--what are the most common 
challenges and how can we quickly move forward on some easy 
solutions with the goal Mr. Gilligan and I have is using that 
forum to quickly get as many agencies as possible to stage 2 
and stage 3, because while that column is very big under stage 
1, we think there are some simple solutions where we can 
quickly slide that column over to stage 2, and we want to use 
the forum to do that.
    Mr. Putnam. Do you want to elaborate on what some of those 
easy things would be to get everybody into stage 2?
    Ms. Nelson. Sure. Well, I'll speak for my own agency. My 
own agency went from a three in the first GAO evaluation to a 
two to a one. That is not good progress.
    Mr. Putnam. Going the wrong way.
    Ms. Nelson. It is a slide, a slide the wrong way, you are 
right.
    We feel that right now, with some simple changes we have 
made, we are probably at a three, and using the OMB self-
assessment, probably have rated ourselves as a three. Simple 
thing. We have never had a formal written policy.
    Mr. Putnam. Wait a second. You gave yourself a three, but 
they gave you a one?
    Ms. Nelson. Well, they did, but the one thing you have to 
understand about the GAO policy or the GAO approach, and I 
think it is a good approach, but the one thing you have to 
understand about it is you could get 31 out of 32 right, and in 
most classrooms across the country that is an A, that is close 
to a 95 percent----
    Mr. Putnam. Even under No Child Left Behind.
    Ms. Nelson. But under the GAO framework, if you got 31 out 
of 32 correct and the one you didn't get correct is a stage 1, 
then you are way back at the beginning.
    Mr. Putnam. Do you hear that Mr. Hite? She doesn't like 
your grading scale.
    Ms. Nelson. So you do have to delve down a little. And I am 
not arguing. I think the questions they are asking are the 
right questions, but you have to understand that.
    So, for instance, all through stage 1, 2, and 3 there are 
two things we can take care of. One of them is do we have 
enough resources. We answered no because at that period of time 
we were in a freeze. We do have enough resources now. That is 
easy. Checkmark. That automatically takes us to stage 2. Stage 
3, we did not have a formal written policy that the 
Administrator had signed. Even though we are using the 
architecture, it is part of our investment process, we are 
applying it, we have aligned it with the FEA. Because there 
wasn't a piece of paper with Administrator Mike Levitt's 
signature on it, it kicked us all the way back. We will have 
that policy signed in the next few weeks; we are working it 
through the process now.
    There are things like that many agencies have cited, and we 
are helping them find the best policies throughout the Federal 
Government and get them in place. But what is important is you 
have to use them. Just having that piece of paper signed is 
meaningless if you are not really using it.
    Mr. Putnam. Mr. Hite.
    Mr. Hite. I would offer a couple additional thoughts to 
amplify on what Ms. Nelson is saying.
    What you see on that chart is a point in time 
representation. Most of those responses were as of about 10 
months ago. So the way things are today I would hope are much 
better than they were then. And as Ms. Nelson is saying, they 
are in her situation much better.
    The other thing to keep in mind when you look at that is 
that is a representation at an aggregated level of a lot of 
detailed information. When you aggregate information, you can 
lose specifics, so you have to have rules governing how you 
aggregate it. The rule that we used in applying our framework 
was in order to be at a stage, you need to satisfy all core 
elements at that stage. If you don't satisfy all, you don't 
qualify for that stage. So embedded in that is the reality that 
an organization could be not satisfying one stage 2, and thus 
be at stage 1, and they may be satisfying a half a dozen stage 
3, 4, and 5 elements. That level of detail is not in an 
aggregated view, it is in the details of what we reported.
    And, of course, the other thing to keep in mind, the reason 
we adopted that philosophy is these things, these core elements 
that needed to be present were not trivial things; they all 
have a very real purpose, a purpose that is grounded in best 
practices, a purpose that is extracted from the Federal CIO 
Council practical guide on managing enterprise architecture. So 
they are not things that we came up with, saying this would be 
nice to have; these are fundamentals.
    Mr. Putnam. What about this signature thing? If they have 
this great policy and they are doing it, and they just have a 
slow bureaucracy that the Administrator can't get around to 
rubber-stamping this policy that is already in place, that is 
really enough to backslide two grades?
    Mr. Hite. Well, the core element that needed to be met 
relative to stage 2 was that you had a policy governing 
enterprise architecture development, and whether in EPA's case 
it was because a policy existed but it just was not signed, to 
be honest with you, I can't speak to the specifics of every 
situation. But the purpose of a policy is very profound. A 
policy demonstrates an organization's commitment to perform a 
certain way. In the absence of policy which says this is how we 
are going to operate in this organization, then people are left 
to their own devices. And people left to their own devices go 
off in different directions, all with good intentions, and 
architecture is designed to get people all marching in the same 
direction.
    Mr. Putnam. Is there some deadline when that policy was 
supposed to be in place by, Ms. Evans?
    Ms. Evans. No, we did not establish a specific deadline 
that said all agencies have to have a policy. As a matter of 
fact, I believe that was one of the suggestions that GAO had 
offered, that we should send a letter out enhancing that and 
advising going forward on that. That was one of the suggestions 
going forward, because there wasn't specific guidelines out 
there saying every agency needs to have a policy in place.
    But I would like to followup a little bit on that and say 
that I don't disagree with the way that the GAO model is set up 
in ensuring that the basic tenets of a good program are in 
place. I would like to say, though, that you have to take both 
of those into consideration to really see if an agency is truly 
using enterprise architecture to go forward to manage its 
portfolio. And so we are not here to debate whether the GAO 
maturity model and framework is a good one or a bad one, 
because it is based on the tenets of the CIO Council as well, a 
framework that came out of the CIO Council, but what we are 
saying from an OMB perspective is that--and this is another 
recommendation that came from the GAO report as well--is that 
we had to exercise even more oversight and more guidance out to 
the agencies. And that is the reason why we came up with the 
assessment framework from our perspective, too, because then it 
compliments what GAO is doing, so that you can then look at it 
as if, well, OK, if the policy is in draft, then it is going 
through, but yet they have all the other tenets there and they 
have the capability and they are using it, then you can use the 
two frameworks to really get a handle on how an agency is 
moving forward and how mature that process really is, and is it 
really embedded into the strategic planning going forward.
    Mr. Putnam. I don't want to harp on this and punish Ms. 
Nelson for being candid, but it just seems like the policy 
ought to be first base. How do you do all the other stuff if 
you don't have the leadership from the top? That is what we 
harp on in every one of these hearings, is getting leadership 
from the top. And if you all are already doing these things, it 
sure seems like having a policy signed and in place by the 
agency head or the department head ought to be one of the first 
things that is done just to get them committed, the name on the 
dotted line, and get them invested.
    Ms. Evans. I would just like to comment one further point 
on this. The policy itself isn't so much about do you have an 
enterprise architecture in place and are you doing certain 
things. The policies and the guidelines that come out from OMB 
are based on the tenets that are in the Clinger-Cohen Act and 
in the E-Gov Act, talking about overall management of the 
portfolio and how you are moving forward with your capital 
planning.
    Now, if you have a good mature capital investment planning 
program, then that means you have a modernization blueprint 
which is your enterprise architecture. So that is the point 
that I am making, that this is not a new thing that the 
agencies had to do. So when we talk about the details there, 
the agencies do have policies and plans in place of how they 
manage capital investments, and so those are in place, those 
have been signed by the agency heads going forward.
    Additionally, what we have done to bring this to the agency 
in holding an agency accountable is this is specifically 
included in the President's management agenda and in the 
scorecard under the E-Gov element. So for an agency to be able 
to go green, this is a green criteria; that you have to have 
your enterprise architecture in place, you have to have that 
modernization blueprint in there, and you have to be using it. 
And so that is how we are holding the agencies accountable in 
that manner through the scorecard.
    Mr. Putnam. So there is a direct connection, then, between 
your at-risk status and the FEA initiative. So you use this 
scoring mechanism to decide whether they are making progress or 
made progress on the FEA?
    Ms. Evans. We actually use a combination. And so we have 
our own assessment model, and actually what we do, and you 
would recognize it, we put up a quadrant when we meet the 
agencies and we map our assessment score against the GAO 
assessment score, and the agency falls into a quadrant. I would 
be glad to give you a draft, in essence a report that we 
provide each agency as we go forward so that they can see how 
we are looking at their architecture efforts in concert with 
how they showed up in the GAO report, and then we go into a 
detailed assessment based on criteria that we have developed; 
and then we show them, based on all of that, how many of your 
investments aligned to the BRM, we give them very specific 
information about where we couldn't see clear alignment of 
investments and we give them the number, and then we also give 
them very specifically a list of investments that look like 
they are duplicative to us, getting back to your original 
comment. So we give them a whole huge package so that they can 
look at it. And we can give you a draft of this report, a 
representative sample of how we are doing that.
    Mr. Putnam. I don't think I want to see. I don't even 
understand the Cliff Notes version you just gave me.
    Ms. Evans. Well, what happens is that we take this and we 
take our assessment and we map it on a grid, and there is a 
maturity model associated with it. And then, with all the other 
tools that we have in place, we look at, OK, if this isn't in 
place, there is a series of documents that we look through 
based on the submission, what they were required to do. So what 
will happen is if they don't have--I mean, the best way to do 
this is if they don't have enough information for us to even 
assess it, we show them what we are doing with the other 
agencies and it is marked DRAFT all the way across, which then 
that means they don't have the checkmark on the scorecard that 
says that they have a modernization blueprint, which then that 
pretty much drives down, it is a cascading effect to all the 
other things that are going on that they are being measured for 
of how they do their overall portfolio.
    So if you have an agency who is just trying to get 
checkmarks, which means that they may have a group of people 
who are working on filling out paperwork for business cases and 
another group that is trying to fill out the paperwork so they 
can get their checkmarks for enterprise architecture, when you 
pull it all together, you can see that is why they have at-risk 
investments, that is why they don't have a good cyber security 
program, because they are just trying to get the checkmarks 
going forward.
    Mr. Putnam. Mr. Matthews, do you understand the system? You 
have to live with it.
    Mr. Matthews. Yes, sir.
    Mr. Putnam. Ms. Nelson, do you understand it?
    Ms. Nelson. I believe so. Karen and I are meeting on Friday 
to go over this, so I am sure I will have a fuller 
understanding on Friday.
    Mr. Putnam. Well, bring your quadrant paper. If you all 
understand it, I am happy. I mean, I think that is great. I 
just get a little bit nervous about all the different ways that 
we grade things. A legitimate complaint about things is that we 
are always changing the rules of the game. So as long as the 
folks having to do this understand the rules of the game and 
what they are being held accountable for, I think that is 
wonderful. But if she thinks she is a three and GAO thinks she 
is a one, I don't know which quadrant that puts her in, maybe 
she is a two, but it does get a little confusing, at least for 
the slow learner in the crowd who is sitting in this chair.
    Ms. Nelson. Can I clarify?
    Mr. Putnam. Please.
    Ms. Nelson. I do want to say, and I think hopefully it came 
across before, I support the measures that GAO has in place. 
And, in fact, in conversations with our own architecture 
committee and our chief architects, I said we need to accept 
these. This isn't about disagreeing with these, because these 
are accurate, these are right. All I was trying to do is point 
out, though, that the numbers on the surface can be deceiving, 
because you can get up to 20 here. There are about 32 things 
you get ranked on, and if you miss one of those, you could be 
stage 4 or stage 1, depending on what you miss. So that is why 
I am just suggesting delve down one layer to see which one an 
agency is missing and how significant is that.
    It is also important that the GAO model really measures 
maturity. And that is a little bit different than what OMB is 
measuring. So while they are different, that is OK, as long as 
the people who are using them understand the difference. And 
those of us who are using them, I think we do understand the 
difference. As I said, we just did our own self-assessment 
using the OMB model, and I think we are close to a level 3. You 
don't want to confuse those because they are measuring 
different things.
    Ms. Evans. Let me try one more time. But when you map the 
two of those together, because it is the question that you are 
asking. OK, you get an assessment from GAO and it is saying, 
for example, let us take EPA, and it says it is a one. Then we 
have a tool that says, oh, they are a three. So the natural 
question is, well, what the heck is that and why are you 
measuring two separate things. Well, we are trying to then give 
you a view into, OK, they may have the basic tenets, you know, 
they may be practicing things very well, but they don't have 
the core of what they need to have a sustaining practice beyond 
the current people that are there. So that is why we tried to 
put it in a framework that an agency could look at it.
    So if you took a one and a three, based on these two, they 
would show in the quadrant that is growth, which means that 
they have the potential to continue to grow in EA competencies, 
which would definitely show that there is a difference there 
and that communication needs to go forward; that it is 
definitely not a best of breed there.
    Mr. Putnam. Room for growth. Seems like my junior high 
report card. Room for growth.
    I apologize if I have dragged this into the weeds.
    Mr. Hite, do you have any comments that you would like to 
leave us with before we move to panel two? You started all 
this.
    Mr. Hite. Yes, sir, if I could offer a couple of comments 
on what we have been talking about so we can get further into 
the weeds, one of which is that I would be willing to accept on 
behalf, for you, what Karen asked to share with you, because I 
would be very much interested in seeing those results.
    But let me also say that when we did this framework, we 
didn't believe that it is going to be the end-all and be-all, 
the one measure that is going to tell you everything you want 
to know about progress in enterprise architecture. One of our 
motives was that it is not being measured now at all, so let us 
get a measurement tool out there. But we also recognize that it 
measures a particular thing: it measures the maturity of the 
management process. It is a process framework. It does not 
measure maturity of content of the architecture, for example. 
That is a whole different set of criteria. So we believe that 
there needs to be multiple measures.
    Now, I haven't looked at the specific one that Ms. Evans is 
talking about, so I can't comment on it particularly, but I can 
say that I support the idea of multiple measures so that you 
get a clearer picture of where an agency is in this very 
important area.
    Mr. Putnam. How many people work in GAO's IT division?
    Mr. Hite. Rough number is 160 to 165.
    Mr. Putnam. Isn't it fun having 165 people checking out 
everything you do, Ms. Evans?
    Ms. Evans. Yes, it is.
    Mr. Hite. Well, I would like to also add that I have about 
six looking at enterprise architecture across the entire 
Federal Government.
    Mr. Putnam. Well, we haven't really cracked any heads or 
anything over what is on this chart, and I think now that we 
are digging in, there are good reasons for doing that. But I 
think that you can generally say, looking at the trend, for 
whatever falls are in your scoring mechanism or in the grading 
content, the trend isn't real high.
    Mr. Hite. Absolutely.
    Mr. Putnam. I mean, you have 76 in stage 1, nobody in stage 
4, and 1 in stage 5.
    Mr. Hite. Well, this one over here shows you the actual 
trend. This shows you if things have gotten better since they 
were in 2001. And that is comparing against the same version of 
the framework.
    Mr. Putnam. I think that is the overarching lesson here, 
without digging down into exactly what the content was. The 
bottom line is we have a long way to go.
    Mr. Matthews.
    Mr. Matthews. Mr. Chairman, one thing that I wanted to 
mention on the OMB version, there are certain criteria in each 
one of those stages, and while an agency may be working at 
satisfying criteria in stage 2 and 3, and they don't have, as 
Ms. Nelson pointed out, a signed document from the 
Administrator of the Secretary's office, it would reflect them 
as being in stage 1 until such time as they had that document, 
even though they had satisfied everything in two, three, four, 
and five. Perhaps when we report, an acknowledgment that 
certain criteria are being met in other categories would be a 
better indication of an agency's growth along that framework 
path. Certainly agencies need to have senior management 
support, but the true measure of the work that is going on is 
how many of those criteria are being met from year to year.
    Thank you, sir.
    Mr. Putnam. Ms. Nelson is going to go camp out in front of 
the administrator's door and hold him down until he signs her 
paper.
    Ms. Nelson.
    Ms. Nelson. I have the pleasure of having an administrator, 
Mike Leavitt, who gets it, who understands enterprise 
architecture. In our very first meeting he raised and used 
those words, so we will get it done. But I concur with Mr. 
Matthews, because an interesting chart for you to look at maybe 
is to see if you take the 32 items or characteristics we are 
being measured on for maturity, how many agencies answered yes 
to those characteristics in stage 4, stage 5, stage 3, stage 2? 
Because you are going to see a lot way out there in four and 
five, and the question becomes some people believe you can't 
get to four unless you do every single thing in three. I 
disagree with that. I think in order to really truly sustain it 
for a long period of time that may be necessary, but I think 
you can gradually move into higher levels of stages, because it 
is not a perfect world. And it might be interesting, as Mr. 
Matthews said, to look out and see how many people do have 
yeses in threes and fours and five. It just gives you a 
slightly different picture. We still need to do everything GAO 
said. I agree wholeheartedly we have to do it. But it is a 
slightly different picture or perspective on the same 
situation.
    Mr. Hite. I would agree that is a relevant thing to look at 
and, in fact, we looked at that. So we looked at the 
performance of core elements between 2001 and 2003, regardless 
of what stage they were in, and basically we found that--I 
can't remember the exact numbers, but this is the rough 
figures. I think it was something like 57 percent of them were 
being performed or 47 percent were being performed in 2001 and 
53 percent of them were being performed in 2003. So if you even 
look at core elements, regardless of stage, there wasn't much 
change between 2001 and 2003.
    Mr. Putnam. Fifty-three percent is an F in most places.
    Ms. Evans, do you have any final thoughts?
    Ms. Evans. Well, first and foremost, I would like to thank 
you for having the hearing today on the Federal Enterprise 
Architecture, as well as giving the agencies the opportunity to 
talk about their enterprise architectures. As you can see, this 
is going to be a continuous challenge just based on the dialog 
that we were having today, and how we are using it to continue 
and manage overall. But I think the big key is to really 
realize that this isn't really just an IT tool, and that the 
CIOs, yes, are chartered to do it and we have mapped it to do 
things with the IT investments, but this really is a management 
tool, and it is a strategic management tool. And I have been 
able to answer questions very quickly and very rapidly for my 
management by saying, yes, I know what agencies are in this 
area providing this type of service and, oh, by the way, I do 
know how many dollars are being invested in IT this way. We may 
not necessarily talk about the models, and you can see when you 
start getting down to a certain level here we have to start 
talking the same language, and technical people go off in one 
direction and management people go in another, but the key here 
is that this tool and a hearing like this raises it to a level 
where we then can talk about it and start going down that path. 
So I would like to commend you and thank you for having this 
hearing today for us.
    Mr. Putnam. Well, thank you, and you all keep working on 
it. We have a long way to go, but it is very important, and we 
appreciate the work that you are doing on it.
    The committee will stand in recess for a couple of moments 
while we arrange for the second panel.
    [Recess.]
    Mr. Putnam. The subcommittee will reconvene.
    I would like to welcome our second panel of witnesses and 
ask that you please rise and raise your right hand, along with 
any others who may be accompanying you for the purposes of 
providing information to the subcommittee.
    [Witnesses sworn.]
    Mr. Putnam. Note for the record that all the witnesses 
responded in the affirmative, and we will move immediately to 
their testimony.
    Our first witness for the second panel is Dr. Dave McClure. 
Dr. McClure is the vice president for E-Government with the 
Council for Excellence in Government. In that position, Dr. 
McClure serves as the strategic leader of the Council's E-
Government Information Technology programs, developing 
strategies with public and private sector leaders to use 
information and communication technology to improve the 
performance of government and engage citizens. Dr. McClure is 
also involved in many of the Council's intergovernmental 
partnerships and helps runs the E-Government Fellows Program.
    Prior to joining the Council in 2002, Dr. McClure was the 
Director of Information Technology Management Issues at GAO. As 
a member of the SES at GAO, he conducted governmentwide 
evaluations of IT investment and performance measurement 
issues, monitoring agency implementation of IT management 
improvement efforts, evaluating the progress being made with E-
Government initiatives, and reviewing agencies' IT work force 
planning strategies.
    In 1998 and 2001 and in 2004 he was named one of Federal 
Computer Week's top 100 IT executives in the Federal 
Government.
    Welcome to the subcommittee. You are recognized for 5 
minutes.

 STATEMENTS OF DAVID MCCLURE, VICE PRESIDENT FOR E-GOVERNMENT, 
  COUNCIL FOR EXCELLENCE IN GOVERNMENT; VENKATAPATHI PUVVADA, 
 UNISYS CHAIR, ENTERPRISE ARCHITECTURE SHARED INTEREST GROUP, 
   INDUSTRY ADVISORY COUNCIL; NORMAN E. LORENTZ, SENIOR VICE 
 PRESIDENT, DIGITALNET; AND RAYMOND B. WELLS, CHIEF TECHNOLOGY 
OFFICER, IBM FEDERAL, VICE PRESIDENT, STRATEGIC TRANSFORMATIONS 
 FOR IBM SOFTWARE GROUP, APPLICATION INTEGRATION & MIDDLEWARE 
                   DIVISION [AIM], IBM CORP.

    Mr. McClure. Thank you, Mr. Chairman. It is a pleasure to 
be here. As you noted, my organization, the Council for 
Excellence in Government, has been dedicated for more than 20 
years to helping achieve high-performance government and 
increasing public participation and confidence in government.
    I think it is very important that we not lose the citizen 
perspective in the discussions that we have today. Our national 
polls and some of the homeland security town halls that we have 
had around the country recently show that the public wants a 
government that is accountable, simple, convenient to interact 
with, and accessible through the means of their choice.
    The FEA provides some important tools for defining and 
providing this streamlined, simplified citizen-centric 
government to the American public. OMB has provided a crisp 
analysis of the Federal Government as it is and has offered a 
strong vision of where it can be. The common program, business 
and service delivery patterns of government are presented with 
clarity and help reveal the complex overlapping and often 
duplicative nature of its interactions with citizens and 
businesses.
    The FEA approach follows leading-edge commercial practice. 
Many Fortune 500 companies are using similar approaches to 
better align their technology with business process needs. They 
have recognized that IT is more than just building and running 
systems. Enterprise architecture approaches ``tune-up'' 
organizations, focusing on management of information as a core 
asset, and emphasizing component reuse rather than the constant 
``scrap and build'' that we have had in the past.
    The FEA is not defining a single architecture for the 
entire Federal Government. Rather, it assembles the assets and 
the tools that can provide cross-agency analyses, 
identification of performance gaps, and opportunities for 
better alignment of resources. It is not static; it will change 
and it will evolve as technologies change.
    We must stay this course with the FEA. The payoff for the 
Government simply can be huge. Not only can this help achieve 
cost savings and performance improvements, but it also can grow 
the public's confidence, trust, and satisfaction with 
Government itself.
    Let me touch on three important challenges that lie ahead. 
First, we have to proceed with disciplined maturity and 
alignment. We have to make some sense of the many moving pieces 
of Government programs, policies, and services, and the 
enterprise architecture approach is a valid tool for doing 
that. But we have to get agencies up to par. GAO's audit work, 
using its widely endorsed EA Assessment Framework, reveals this 
very mixed progress in the pace, speed, and direction of the EA 
work taking place in the Federal Government.
    The good news is that there are a lot of bright spots. 
GAO's aggregate or top line numbers, as you have seen on these 
charts, while maybe disappointing, tell only a partial picture. 
Many agencies are actually doing things at higher maturity 
levels but cannot be tagged that way because they are not 
performing completely at lower levels. Several of these 
agencies, by the way, Mr. Chairman, are on the verge of getting 
fives on GAO's scale.
    But putting agency-centric architectures in place really 
stops short of the larger governmentwide transformation that EA 
can help create. We need both vertical alignment of goals, 
processes, and technology within agencies, and, where possible, 
horizontal alignment across common governmentwide functions and 
processes. There is a lot of work to be done in both of those 
areas.
    My second point is about the ``so-what.'' It makes sense 
that those that determine budgets should see measurable impact 
from the time, cost, and energies that we are putting into 
enterprise architecture approaches. They are many that come to 
mind: streamlined and simplified processes, greater systems 
interoperability that facilitate the exchange of information, 
faster application delivery, and enterprise licensing 
opportunities, just to mention a few.
    These are important. They have real dollars attached to 
them. When combined with measuring and scoring the EA 
capability maturity, the measures provide a fact-based 
assessment of capacity, capability, and results. These measures 
are necessary, but by themselves I don't think are sufficient. 
The real high value return from enterprise architecture are 
those that capture the impact on direct mission-related 
performance, whether that be saving lives, protecting the 
environment, inspecting the food supply, or identifying and 
deterring terrorist threats. Better EA should translate into 
time, cost, and quality improvements in government, and we 
cannot lose this line of sight.
    A final key challenge is leadership. Enterprise 
architectures require commitment and participation from top 
leadership, beginning with the heads of agencies and program 
executives all the way through the CIO, CFO, and procurement 
officer communities. It cannot be the sole purview of CIOs and 
CTOs.
    In this vein, I think it is imperative that OMB's vacancy 
in its chief architect position be filled carefully and very 
expeditiously. This person is the most visible spokesperson for 
architecture in the Federal Government, and directs the FEA 
work, and also supports program assessments and business case 
reviews in the OMB budget cycle. We need a credible, 
experienced individual with strong outreach, collaboration and 
communication skills. That person has to translate a lot of the 
jargon of EA into something that is understandable to non-
technology managers and executives, and it is a very, very 
important job.
    So we need continued focused leadership from OMB. We also, 
Mr. Chairman, need to extend this dialog on the Hill beyond 
this committee and into the Budget, Appropriations, and 
Authorizing Committees of the Congress. Enterprise 
architectures offer great hope both as engines of change and 
instruments of sorely needed management controls over orderly 
government transformation. Transparency, accountability, and 
results that translate into better Government for the American 
public should be front and center in all of these efforts.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. McClure follows:]

    [GRAPHIC] [TIFF OMITTED] T6944.060
    
    [GRAPHIC] [TIFF OMITTED] T6944.061
    
    [GRAPHIC] [TIFF OMITTED] T6944.062
    
    [GRAPHIC] [TIFF OMITTED] T6944.063
    
    [GRAPHIC] [TIFF OMITTED] T6944.064
    
    [GRAPHIC] [TIFF OMITTED] T6944.065
    
    Mr. Putnam. Thank you, Dr. McClure.
    Our next witness is Mr. Venkatapathi Puvvada. Mr. Puvvada 
serves as Chair of the Industry Advisory Council, Enterprise 
Architecture Shared Interest Group, and works closely with the 
CIO Council, Office of Management and Budget, and other 
Government agencies in that capacity. Mr. Puvvada co-founded 
the EA SIG in 2002 to address the need for industry and 
government partnerships to help bring industry best practices 
and expertise together in a common forum. The IAC EA SIG is 
comprised of over 200 practicing architects and executives from 
over 100 companies.
    That is harder to say than your name.
    Mr. Puvvada was recognized with the prestigious Federal 100 
Award in 2003 for his contributions and impact on the direction 
of IT in government. For more than 18 years, Mr. Puvvada has 
worked in information systems, 16 years of that with Unisys. In 
addition to serving as the chair of the EA SIG, Mr. Puvvada is 
the chief technology officer of Unisys Global Public Sector, as 
well as the vice president and partner for Unisys Worldwide 
Enterprise Architecture Solutions Services Practice. The Unisys 
EA Solutions Practice consists of world-class enterprise 
solution architects that develop and implement architectures 
for clients such as the TSA, the GSA, the DOD, the VA, the FDA, 
and several State governments.
    Welcome to the subcommittee.
    Mr. Puvvada. Thank you, Mr. Chairman. We will try to 
simplify these acronyms next time around.
    Thank you for inviting me to speak today. I am really 
honored to be here representing Industry Advisory Council 
[IAC], and I would like to acknowledge some of my colleagues 
that are here for their hard work and their passion to improve 
architectures in the government in the truly excellent way that 
they represent 400 member companies of IAC.
    In terms of our work, before I get into the details of the 
testimony, our recommendations and best practices have been 
successfully published in the form of five white papers, and 
they have been widely recognized for their innovative insight, 
and the details are included in my written testimony.
    In our view, enterprise architecture is the only practical 
way on a consistent basis for comparison of investment decision 
by agency executive leadership. Private sector experience 
suggests that the proper development and usage of EA can lead 
to a major transformation of an organization, its processes, 
and its performance.
    As for commenting on the progress of the FEA initiative, 
the development of the interlinked reference model allows the 
Government to have an enterprise view of its business for the 
first time. As a result of the progress on FEA, we acknowledge 
significant improvements in the way the agencies conduct the 
quality and the assessment of their budgets and the preparation 
of the budget process. Various departments and agencies are 
also making good progress in allowing their enterprise 
architectures in the context of the Federal Government and FEA. 
EA products are effectively used by several CIOs as 
decisionmaking framework in the capital planning portfolio 
management and general IT governance. Therefore we rate very 
high marks for the blueprint for improved IT investment 
management aspect of the hearing, Mr. Chairman.
    However, major hurdles exist for cross-agency collaboration 
and information sharing aspects. Some of these challenges are 
as follows. First one is lack of sufficient positive incentives 
for agencies to collaborate and have common business process 
integration and secure information sharing. The second one is 
lack of sufficient funding and key resources, especially chief 
architect of the OMB, as Mr. McClure referred to, and the 
skills in the context of business architecture skills to lead 
and implement this transformation at the department level, as 
well as the Federal level. Also, the Government needs to move 
the FEA and EA as a high priority transformation mechanism for 
the owners business and mission program so that it doesn't turn 
out to be a technical exercise for architects and the CIOs.
    Going forward with the FEA and the agency EA, we believe 
timely completion and implementation of the data and 
information reference model is very important. The ability of 
the Federal Government agencies to understand and map to each 
other's data through the use of a common model is a major 
factor in achieving the cross-agency collaboration, information 
sharing and data interoperability, along with some quick 
success pilots. Development and implementation of the big 10 
enterprise security and privacy architecture, as referred to 
earlier by Mr. Hite, that is integrated into all layers of EA 
is very critical as well.
    Mr. Chairman, industry really appreciates your commitment, 
your committee's commitment in getting involved as a major 
stakeholder in this initiative. We believe that the 
articulation of legislative priorities and activities in the 
context of FEA are really pertinent in advancing the maturity 
of business-driven IT solutions that citizens are expecting.
    To summarize our view, IAC is very supportive of enterprise 
architecture initiatives as a major government priority and 
agrees with its general direction and recommends staying the 
course. There are a lot of challenges facing these initiatives, 
but they can be overcome with strong executive leadership, 
clear governance, and positive incentives for agencies to 
collaborate. We applaud the Government for reaching out to IAC 
and industry and leverage our expertise, and we are committed 
to continuing this support in future.
    Thank you for the opportunity to appear before you today, 
and I would be very happy to answer your questions.
    [The prepared statement of Mr. Puvvada follows:]

    [GRAPHIC] [TIFF OMITTED] T6944.066
    
    [GRAPHIC] [TIFF OMITTED] T6944.067
    
    [GRAPHIC] [TIFF OMITTED] T6944.068
    
    [GRAPHIC] [TIFF OMITTED] T6944.069
    
    [GRAPHIC] [TIFF OMITTED] T6944.070
    
    [GRAPHIC] [TIFF OMITTED] T6944.071
    
    [GRAPHIC] [TIFF OMITTED] T6944.072
    
    [GRAPHIC] [TIFF OMITTED] T6944.073
    
    [GRAPHIC] [TIFF OMITTED] T6944.074
    
    [GRAPHIC] [TIFF OMITTED] T6944.075
    
    [GRAPHIC] [TIFF OMITTED] T6944.076
    
    [GRAPHIC] [TIFF OMITTED] T6944.077
    
    [GRAPHIC] [TIFF OMITTED] T6944.078
    
    [GRAPHIC] [TIFF OMITTED] T6944.079
    
    Mr. Putnam. Thank you very much.
    Our next witness is Norman Lorentz. Mr. Lorentz joined 
DigitalNet as senior vice president in September 2003. Prior to 
that, Mr. Lorentz served as the first Chief Technology Officer 
for the Federal Government at the Office of Management and 
Budget, where he was also the Acting Administrator for E-
Government and Information Technology. While at OMB, Mr. 
Lorentz spearheaded the White House mission to overhaul the 
Federal Government information technology infrastructure and 
its processes. In driving this initiative, he directed the 
development of the Federal Enterprise Architecture. In 
addition, during his tenure with OMB, Mr. Lorentz was a member 
of the Chief Information Officer Council's Executive Committee 
and the recipient of numerous government and industry awards 
for his leadership and innovation.
    You are a frequent guest of this subcommittee. We are 
delighted to have you back, and you are recognized for 5 
minutes.
    Mr. Lorentz. It is nice to be invited back, and also 
members of the subcommittee. I am here today to talk about the 
progress that has been made on the implementation and 
operationalization of the FEA in OMB and the Federal agencies.
    In my role as CTO of the Federal Government and OMB, I 
directed the development of the FEA. I believed then that the 
FEA provided a tremendous amount of promise in becoming the 
structure for governance for the effective development and 
management of information technology and other asset classes in 
the Federal Government, and I continue to advocate that today.
    I would like to talk a bit about the current situation, 
what the value of the FEA is to the agency and citizens, the 
impact on the business plan process, the continuing challenges, 
and then, finally, success factors.
    The FEA models are just about finished. The data reference 
model and the security profile that has already been discussed 
are about to be completed, and this framework will provide 
significant progress. The FEA really consists of two 
components: the framework outline in the FEA models, as well as 
the EAs that are in the agencies themselves. Without the 
connection between the FEA and the EAs, there is not a solid 
construct within which to make investment decisions.
    In the past couple of years, and we have already discussed 
in quite detail, the GAO and OMB have provided assessment 
models. What I would say about assessment models is that they 
are necessary, but they are not sufficient. What is sufficient 
is the measurement of citizen and mission-centered results. 
These assessment models are used to describe a weigh station, 
not the end result. And, finally, OMB is using the FEA to 
identify high priority Lines of Business and consolidation in 
the context of those Lines of Business.
    The value to the citizen is that the FEA provides 
visibility into the agencies' business and solidifies future 
business plans. It helps reduce the cost of current business 
processes by eliminating redundancies and improving the 
efficiency of IT investment. The outcome for the citizen is 
high-quality cost-efficient government services.
    From an investment standpoint, the FEA supports the 
establishment of a portfolio approach to prioritize IT 
investments. Without the FEA, the Federal Government would not 
be able to prioritize in a collaborative manner in these 
investments addressing the highest priority for the citizen. 
From a governance standpoint, the FEA provides a holistic point 
of view; it gives both a business perspective in terms of the 
performance and business reference model, which is the ``what'' 
for the improvement, and then it also provides the more 
technically oriented reference models, which describe the 
``how.'' And from a technology standpoint, FEA provides a 
coordinated approach to reporting between OMB and the Chief 
Information Officer's Council is making significant progress in 
maturing the reference models.
    The impact of the FEA on the business case process in OMB. 
Although the agencies have been making progress in the business 
cases, last year, the first year, the OMB issued guidance in A-
11 that included specifics on the FEA. Doing so was a 
significant step. The agencies should provide similar guidance 
for consolidation opportunities in the context of the EAs.
    The continuing challenges. Some agencies are struggling to 
implement the FEA. As OMB provides additional support in the 
reference model areas, this should be accelerated; in building 
and maturing EAs and gaining participation and ownership of the 
business areas. This is not a technology problem, this has been 
reinforced many times. This is a business problem, so it 
requires business leadership in the agencies; deputy 
secretaries, chief financial officers, as well as the chief 
information officer. There is limited up-front visibility in 
the detail of other agencies' EAs, and so the FEA provides the 
construct up front to be able to do those consolidation 
analyses. The target EAs for the agencies are limited in their 
forecast and scope. In other words, they cannot see very far 
into the horizon. And some agencies have separated EA and 
capital planning, and that is not sufficient.
    Critical success factors. As an integrated governance 
model, a marriage between the business owner, the chief 
financial officer, and the chief information officer in making 
the business decisions.
    To reinforce what my partners here have already said in 
terms of the chief architect position, it is necessary that we 
provide someone to that position who has both business and 
technology expertise. And, also, that OMB architect position is 
necessary, but not sufficient. There is further analysis 
resources that are required at OMB level in order to be able to 
do the cross-organizational analysis for transformation.
    In conclusion, I have recognized significant progress, and 
we have heard that said here. There has been much that has been 
accomplished, but there is still work to be done. And, finally, 
in a futuristic scenario, right now the Federal Enterprise 
Architecture is being viewed to look at the IT asset class. But 
this business-oriented Federal Enterprise Architecture can also 
be used for the other asset classes: human capital and fixed 
assets.
    Thank you for the opportunity to be here today, and I would 
look forward to your questions.
    [The prepared statement of Mr. Lorentz follows:]

    [GRAPHIC] [TIFF OMITTED] T6944.080
    
    [GRAPHIC] [TIFF OMITTED] T6944.081
    
    [GRAPHIC] [TIFF OMITTED] T6944.082
    
    [GRAPHIC] [TIFF OMITTED] T6944.083
    
    [GRAPHIC] [TIFF OMITTED] T6944.084
    
    Mr. Putnam. Thank you very much.
    Our final witness on this panel is Dr. Raymond Wells. Dr. 
Wells is the chief technology officer for IBM Federal and vice 
president, Strategic Transformations for the IBM Software 
Group's Application Integration & Middleware Division. In 
addition, he is on assignment to one of the U.S. Government's 
classified agencies. Prior to accepting the CTO Federal 
position in October 2002, he was Director of Strategy for 4 
years. He has 35 years experience in information technology and 
has been employed with IBM since 1993. Dr. Wells has served in 
various administrations of the State of Alabama and as the 
Chief Financial Officer for the State of Alabama. He began the 
process of transforming the State's financial management 
systems. Later, as Chief Technology Officer, he completed the 
transformation, known as the Financial Resources Management 
System, the most integrated financial management system in the 
public sector at the time.
    Welcome to the subcommittee, and you are recognized for 5 
minutes.
    Mr. Wells. Thank you, Mr. Chairman. IBM appreciates the 
committee's invitation to speak today about the Federal 
Enterprise Architecture. Our message to the committee today is 
quite simple: the focus provided by the Federal Enterprise 
Architecture initiative of the Office of Management and Budget 
is sound policy. FEA is about leveraging technology to focus on 
strategic priorities. Enormous benefits will be returned to the 
Government and its citizens.
    Enterprise architecture is a framework or a set of 
interlocking frameworks which has as its core the 
organization's mission and strategy. It is about the strategic 
management of technology resources which provides the 
substantiation and manifestation of efficient and effective 
business processes. This is paramount. Understanding the key 
business processes is a prerequisite for prioritizing and 
guiding information technology investments.
    Perhaps no organization understands this better than IBM. 
Our own transformation has an obvious relevance to the business 
modernization efforts now in progress within the Federal 
Government. IBM underwent a major financial, competitive, and 
cultural transformation beginning in 1995. IBM refocused itself 
on the customer in the marketplace as the measure of success 
and recreated the company as an entity that could translate 
technology into business value.
    The Federal Government finds itself in much the same 
situation as IBM 10 years ago, a vast, siloed organization with 
disparate information technology systems, a multitude of data 
bases and applications that didn't work with each other, and 
with complex and often competing business processes that 
hindered organizational efficiency.
    IBM's own transformation required a fundamental 
reexamination of everything that we were doing. We consolidated 
and focused our business processes, improved our time-to-market 
by 75 percent, reduced business applications we used to run the 
business from 16,000 to 5,200, consolidated 155 data centers 
into 12, reduced 31 private networks into 1, went from 128 
different CIO positions to 1; we have installed multiples of 
the IT capacity that we had in 1993 at roughly one third the 
cost. In short, we learned to manage technology strategically 
and discovered it was less expensive and vastly improved 
productivity.
    So enterprise architecture is about common processes and 
supporting systems based upon open standards which foster 
interoperability. Enterprise architecture also has the 
additional advantage of helping to create a unified culture 
within the agency. IBM's experience dictates one key facet for 
success: the key to enterprise architecture is sustained 
executive commitment and the strategic allocation of resources 
to key operational initiatives.
    At the leadership and framework level, the Federal 
Government is approaching FEA correctly; there is a program 
office in place to manage the process, a management system is 
available which provides agencies the tools to assess 
enterprise architecture requirements and develop and implement 
their own enterprise architectures. Empirical knowledge and 
effective solutions are being captured so that the agencies can 
reuse and extend lessons learned, avoiding duplication and 
leveraging available resources.
    As in any major transformation effort, there are areas for 
improvement. The examination of OMB's scorecard, as has been 
repeated here, shows some agencies moving more rapidly than 
others. In some instances this can be explained by the sheer 
complexity of the operational requirements and technologies 
that need to be mapped. What is needed is more agency 
leadership on enterprise architecture implementation and more 
discipline with respect to strategic IT investments. We still 
see far too much in the way of tactical investment in 
technology.
    Consider the Department of Defense, with over $1 trillion 
in assets and an annual budget of roughly $400 billion and 3 
million military and civilian employees, global missions, 
facilities and suppliers. DOD is obviously the world's largest 
and most complex enterprise. DOD's enterprise architecture is 
the largest, most complex, and most pervasive enterprise 
architecture developed to date, either in the public or private 
sector. Historically, the Department's services and agencies 
have used individual procedures with multiple systems to 
support those procedures. This limits DOD's ability to provide 
timely, accurate, and reliable business and financial 
management information, and creates a higher than necessary 
cost for performing the business of defense.
    IBM, along with others, has delivered to the DOD the first 
stages of an enterprise architecture that will help transform 
and modernize key business operations. Developing this 
framework has been and remains a massive undertaking, involving 
over 2,000 information systems and many thousands of business 
processes. Hundreds of existing policies will change, dozens of 
systems will be modified, more than 1,000 existing systems will 
be sunsetted, and more than 100 new systems will be 
implemented.
    A key component of any agency transformation involves 
cultural change. You can't do business the same way. Moving to 
a common agency enterprise architecture and the infrastructure 
it fosters will contribute to building agency culture. However, 
sustained commitment of top management officials is required 
for success.
    Enterprise architecture is an enabler of the transformation 
of government. Enterprise architecture provides the basis for 
evolution from tactical to the strategic management of 
technology assets and significant transformation and 
operational processes.
    Mr. Chairman, thank you for the opportunity to discuss our 
views and experience with you. I look forward to answering any 
questions you may have.
    [The prepared statement of Mr. Wells follows:]

    [GRAPHIC] [TIFF OMITTED] T6944.085
    
    [GRAPHIC] [TIFF OMITTED] T6944.086
    
    [GRAPHIC] [TIFF OMITTED] T6944.087
    
    [GRAPHIC] [TIFF OMITTED] T6944.088
    
    [GRAPHIC] [TIFF OMITTED] T6944.089
    
    [GRAPHIC] [TIFF OMITTED] T6944.090
    
    [GRAPHIC] [TIFF OMITTED] T6944.091
    
    [GRAPHIC] [TIFF OMITTED] T6944.092
    
    [GRAPHIC] [TIFF OMITTED] T6944.093
    
    [GRAPHIC] [TIFF OMITTED] T6944.094
    
    Mr. Putnam. Thank you very much, Dr. Wells.
    We will begin with some questions for the entire panel, 
beginning with Dr. McClure. What is the Federal Government's 
shining achievement in this area? What is the key area where we 
can hang our hat and say we have actually made some real 
progress here?
    Mr. McClure. Mr. Chairman, I think just looking back 5 
years or more and seeing where we are today, despite the fact 
that those bars on those charts look dismal, we are, believe 
me, much further ahead than where we were previously. There is 
agreement on frameworks, there are a lot of available tools, we 
have a common assessment process that GAO uses that the 
industry and the agencies accept to a large degree, and we are 
seeing progress. It is, I think, a tough area, as Dr. Wells 
just said. The complexity of what we are doing in the public 
sector environment, particularly at the large department level, 
can be a little overwhelming at times. I think there is good 
news here as well in that progress is being made and that we do 
have some agencies that have done some absolutely fabulous jobs 
putting architectures together.
    The other shining light is the FEA. I think it represents a 
world-class view of trying to look at how government functions. 
And for the first time we have a clear picture of the real 
possibilities of operating government in a different way, and I 
think that is a very significant achievement.
    Mr. Putnam. Mr. Puvvada.
    Mr. Puvvada. I concur, Mr. Chairman. I think one of the 
biggest improvements that we have seen is that agencies are now 
beginning to think about enterprise architecture at the start 
of a system development process or the start of an investment 
management process. So from that perspective, that is a 
significant change in terms of behaviors, in terms of 
incentives there. There are aligning IT strategic plans, 
investment review boards, and business case and budget 
submissions. We have seen good leadership from OMB. We are 
obviously concerned about lack of resources, as we talked about 
earlier, but this has been a priority and this is going to take 
time to get to see most agencies show up in stage 5 category, 
but we are really positive about the progress that has been 
made, and a lot of agencies are actually looking at the first 
thing that they do this transformation through architecture.
    Mr. Putnam. Mr. Lorentz, do you wish to add anything?
    Mr. Lorentz. I think the one thing that sticks with me, I 
didn't keep track of how many times in the course of the 
testimony to this point that we have referred to this problem 
as a business problem, not a technology problem. I have to tell 
you 3 to 5 years ago we probably would not have had that 
conversation. That is being shown in significant behaviors by 
business leaders, deputy secretaries. Just look at the five 
initiative, the President's initiatives, all business oriented, 
and E-Government enables the other four. So it is really the 
understanding that we are trying to solve a business problem 
here.
    I sometimes think back to the CTO experience. It should 
have been chief transformation officer instead of chief 
technology officer, because I would say 99 percent of the time 
that I spent in that position was spent on non-technology 
issues. It was about business mission roles and outcomes. So I 
think the real major progress, certainly the FEA I happen to 
believe is a great ``how,'' but the real issue is mission 
citizen-centered real business problems.
    Mr. Putnam. War Eagle.
    Mr. Wells. War Eagle.
    I agree completely with Norm's assessment. The change in 
focus is the correct change, that is, that we are focusing not 
on IT as a cost center; how much are you spending on X. It 
should be how much are you spending on X to improve a certain 
process. So this change in focus I think is the primary success 
of FEA and the enterprise architecture initiative in the 
agencies. This is a management problem, it is not an IT 
problem. It is a management problem, and focusing the assets 
strategically to be addressed to the mission and processes of 
the agency itself.
    Mr. Putnam. Well, you have used a number of examples from 
your IBM experience and you talked a little bit in your opening 
testimony about the scale of a department like Defense. What 
lessons can we draw from the private sector that do apply to 
something as mammoth as the Federal Government?
    Mr. Wells. The Federal Government has, as most businesses, 
historically managed information technology either tactically 
or sub-tactically. By changing to a focus of managing It as a 
strategic asset to enable the business transformation, we have 
discovered that it costs a heck of a lot less. I know agencies 
in town that actually have too much money. And when you have 
too much money, you can waste it.
    IBM ran out of money in 1993, and we had to fundamentally 
reassess our business. And so when we started managing 
technology, we took the toys away from everybody and started 
managing those toys as strategic assets. And for a technology 
company to take toys away from its employees represented a 
massive cultural change that had to be managed from the top. 
But when we did it, we found out we could consume a lot more 
resource, a lot more, multiples of what we used to consume, 
with fundamentally much less investment.
    Today, the IBM Corp. has no paper processes. I could not 
even remember the last time I touched a piece of IBM business 
paper. We manage our business electronically. We have 
substantially reduced the cost of our support staff, we have 
substantially increased our own productivity, and we are 
spending a heck of a lot less. It is a fundamental change in 
looking at technology as a strategic asset to be managed by 
senior management, not by the IT staff.
    Mr. Putnam. Mr. Lorentz, you are back in the private 
sector. Would you like to comment on the lessons we can pick up 
from the private sector that apply to something as large as the 
Federal Government?
    Mr. Lorentz. Well, it is interesting. Recently I have had 
the opportunity to talk to some private sector CEOs, and a lot 
of them are taking significant interest in the technology 
investment, and so that the CEOs are actually saying I need to 
understand the technology injection because technology now is 
improving their product line and business processes. Any 
conversation in the boardroom with the CEO includes whatever 
the chief technology is, CIO, CTO, as well as the chief 
financial officer. So the fact that we are putting this 
construct in place in the Federal Government will, I think as a 
leading indicator, the leadership piece of this is a leading 
indicator to the progress that we can make.
    And I certainly support what Dr. Wells was saying. What has 
to show up now is consequences. Transformation does not occur 
without consequences. There needs to be more significant 
analysis done of the cross-agency, cross-organizational 
opportunities for consolidation, and then the agencies and the 
Federal Government need to go on a collaboration diet. And that 
means that they get the money to do the collaborative 
initiatives and they do not get the money to do the one-offs. 
And it is not a bottoms-up experience, it is a top-down 
experience.
    Mr. Putnam. When you say consequences, are funding issues 
the best consequence?
    Mr. Lorentz. Absolutely.
    Mr. Putnam. The only consequence?
    Mr. Lorentz. Yes, certainly. If you take away the resources 
for--you know, when I was in OMB, I think at the time we did 
the grants analysis, we had 17 grants engines. OK? You can 
argue whether we need one. You can certainly believe we don't 
need 17. And so on the face of it, it doesn't hold water. And, 
by the way, that means we are spending an extraordinary amount 
of money doing the analysis down in the vertical and not as 
much money doing the EA FEA cross-organizational analysis. With 
that improved analysis and data and the engagement of the 
leadership, which would be the PMC, the deputy secretaries in 
those issues, and driving those budget conclusions, then the 
transformation will occur.
    Karen was describing earlier the areas, financial 
management, human resources and so forth, where they are doing 
that kind of analysis right now. That is where I think we have 
the near-term opportunity to exhibit that leadership.
    Mr. Putnam. Mr. Puvvada would you like to comment on that 
line of questioning, the lessons learned and the consequences?
    Mr. Puvvada. Digging a little bit deeper into lessons 
learned, where we find agencies succeed is where they really 
focus on target architectures. We have a hard time, a lot of 
times, our folks, when they are working with agencies, 
convincing agencies not to get too much into documenting 
technically, as is architecture. So in terms of where the 
Government needs to be is focused on the target architecture in 
the context of how do you improve the business and citizen 
services, as you articulated at the beginning of this hearing. 
And then taking that target architecture, because it tends to 
be conceptual because you are, again, not there in terms of 
implementation, take that transition plan and talk about how 
that would be integrated into standard business processes. It 
is not a separate plan, it needs to be institutionalized. I 
think that is when we are going to really see some results.
    One of the things that is not quite evident is that the 
reason why we are not seeing results is that it is a process 
where we all understand now that we need to build 
architectures, we need to think architectures. Now, we are just 
beginning to see the results. I think as we see more and more 
of these successes, then we understand a little bit more about 
how to optimize the cycle of going forward in making some 
investment decisions as well as implementations. So it is a lot 
of work to be done, like we talked about before, but I think 
positive incentives and focusing on the right area, not 
necessarily documentation for technical purposes, I think will 
get us there.
    Mr. Putnam. Dr. McClure.
    Mr. McClure. I can echo a lot of just what has been said. I 
think it all begins at the top. If you don't have the executive 
commitment, or even interest in this, it is not going to be 
successful. That is certainly learned from a lesson learned.
    I think, too, disciplined processes have to be in place. 
Successful organizations, public and private, are ones that 
find the ways to do things that bring value to what they are in 
business for, and they repeat them and they institutionalize 
them; and that is very important as we move forward. The 
business and performance focus of architecture is what this is 
all about, and I agree totally with Norm that is the value that 
we are getting out of this right now.
    And two other lessons learned are governance and tools. 
Don't try to do this unless you have a governance process, 
because we have spent decades of writing architectures on paper 
but never putting them in place or enforcing them. And the 
other is tools. We have some good tools that are available to 
do enterprise architecture work, but we have to have people 
that know how to use them. So getting the right skills in 
place, whether it is inside Government or through the 
assistance of contractors, is really key for success.
    Mr. Putnam. The contractors point is an interesting one. 
What challenges or successes or lessons learned from our 
contractors' experience can we apply to this enterprise 
architecture improvement process? They certainly have a big 
role to play in this. What do we learn from their experience? 
Anyone.
    Mr. Puvvada. One of the things that we have to do a better 
job of is simplifying this whole enterprise architecture and 
its concepts. Typically, we don't do a good job of explaining 
what it is, to the point where business lines look at this 
stuff and say that is technical. So we need to do a better job 
of articulating in very simple terms, very clear terms, here is 
how you can develop a road map for your business goals and 
business performance.
    Generally, from a contractor point of view, the biggest 
challenge out there is to find skilled enterprise architects; 
not just within the Government, even for us. It is an evolving 
discipline, and it requires not only technical skills, business 
skills, but the articulation of that, because you are 
facilitating a business transformation on a regular basis. So 
we are working hard. Member companies that I represent are 
working very hard in getting better at these skills so that we 
can support the Government.
    Mr. Putnam. This whole notion of cultural change keeps 
coming up. Everybody has mentioned it in some form or fashion. 
How do we tackle that challenge? How do we really fundamentally 
change the culture? And we will begin with Dr. Wells.
    Mr. Wells. Senior management has to provide sustained 
commitment. I have witnessed several attempts at transformation 
in the last few years in this community, and it is easy to get 
a senior manager to articulate the requirement for cultural 
change. The words flow easy. But then it requires changing 
behavior and enforcing the behavioral change. And this requires 
somebody that is going to be around for a while, going to 
enforce. Norm said there has to be consequences. There has to 
be consequences for not changing behavior. Those consequences 
can come from within the agency or they can be encouraged by 
the Congress. But there certainly has to be sustained executive 
commitment to enforcing behavioral change; otherwise, it will 
never happen. It cannot bubble up from the bottom.
    Mr. Putnam. Mr. Lorentz.
    Mr. Lorentz. Just to reinforce that, transformation does 
not come from an internal source. In the private sector it 
generally comes from a marketplace intervention: you either 
change your organization or you become extinct, or you have a 
leader that becomes unreasonable and says this is the way I am 
going to run the enterprise. So we have to figure out what that 
looks like in the Federal Government.
    Certainly the President's management agenda, good 
fundamental blocking and tackling management practices, is an 
excellent start. We have some good codification in law, so 
regardless of which of us comes and goes, there is actually 
those permanent positions in place. We need to put people in 
career positions that can, for instance, the architect position 
and also in the agencies that can continue to maintain the 
processes while the necessary leadership changes are occurring.
    But it really does come down to what Ray was saying. You 
have to have leadership ownership, business ownership, and 
there has to be consequences to actions. The nearest term thing 
to that in the Federal Government is certainly the budget, but 
also in the private sector there are other methods that can be 
used.
    Mr. Putnam. Mr. Puvvada.
    Mr. Puvvada. If you go back to the enormity of why we need 
the culture change, Government and lots of private 
organizations, as a matter of fact, have been so much used to 
thinking in the context of an organizational structure. So now 
what we are talking about is going beyond the organizational 
structure, so the order of magnitude of culture change that is 
required is enormous. It is going to take different steps, 
different stages similar to the maturity that has been talked 
about here. Norm certainly addressed the ``who'' part of it; 
you have to have some change agents, whether they are from 
within the Government, from outside.
    I think what will go a long way in impacting the culture 
change is really some real success stories and the 
eventualization of those success stories, and real results to 
go with it. So we really need to see results come out of this 
initiative and to be able to articulate that value in terms of 
business and government performance and relate to citizens' 
expectations. So it is not an easy thing to do. Like Norm said, 
in the private sector your existence is at stake if you don't 
change. In the Government, our security is at stake if we don't 
change. So we have the similar challenges that the private 
sector continuously goes through, but it is going to take a 
long time for the culture change to occur.
    Mr. Putnam. Dr. McClure.
    Mr. McClure. I would agree. I think you need a combination 
of strong levers. Maybe you need a baseball bat. Some people 
just will not fall in line until there is some real pressure 
brought to bear. But I think you have to counterbalance that. 
You can't do that in the Government just with a forcing 
function. You have to incentivize change. And I think PV is 
right on target. We need to have some demonstrated results and 
we need to go evangelize those results and show executives who 
are skeptical that change can happen and this can make a big 
difference. So I think best practices, examples, case studies 
go a long way.
    And then last I think it is just dialog. It is 
conversation. It is education. It is awareness building. We 
have to continue to have this dialog with more than just the 
technical people in the room.
    Mr. Putnam. Is there any example that you can think of 
where an agency has done particularly well and the right people 
have evangelized it and brought about a positive change in 
behavior?
    Mr. McClure. I think there are examples. That is part of 
the issue, is we have examples in the Federal Government where 
EA has been used, where investment controls have been used, and 
there is just not a recognition of the value of actually 
talking about it. Sometimes there is a fear of talking about it 
because you don't know what will come back to bite you. So it 
is just changing the culture and realizing success needs to be 
advertized.
    I think there are examples of cost savings and reduction in 
duplicative systems and actually progress in making reuse of 
software in many of our component agencies and departments. 
There are bits and pieces; they are not fully in place 
everywhere. So you might have a unit, an office, or an 
organization within a department that has done some of this, 
and that just doesn't see the light of day. It is not big 
enough, the dollars are not big enough when you are talking 
about billion dollar budgets.
    Mr. Putnam. Unfortunately, we are going to have to wrap 
this panel up, but I want to give everyone the opportunity to 
have some closing remarks, so we will begin with Dr. Wells and 
move down the panel and share anything that you had hoped to 
have come out of this hearing that may not have or any thoughts 
or question that you wish you had been asked, whatever the case 
may be. Dr. Wells.
    Mr. Wells. I often hear in the agencies a statement that if 
we had the investment money, we would be glad to modernize our 
infrastructure. IBM had to self-fund its transformation. It is 
about using what you have more efficiently.
    The second thing that I would conclude with is the whole 
notion of chief architect. These skills are really rare, as has 
been mentioned, but the job is really the chief business 
architect. It is about architecting the business processes. 
Until you have rearchitected those business processes, you 
cannot effectively apply technology in a transformational 
manner.
    Mr. Lorentz. First of all, I thank you for having these 
hearings and staying the course and showing the interest and 
that kind of support for Karen Evans, who is there now and I 
was there before. This is really hard work. There is no aspect 
of the Government value chain that doesn't need to be changed. 
In the Government today, pretty much everything operates 
vertically. That is the natural state. And so the 
transformation as to horizontal and why should we do that is 
because of September 11, it is because the needs of the citizen 
are now horizontal.
    The one thing that I would respectfully encourage you to do 
is to help with the appropriations process, because even when 
we did manage to get funding for cross-organizational analysis 
into bills and so forth, we lost that funding in the 
appropriations process. Part of that is because perhaps we 
weren't as adept as we could have been at telling our story. 
But we would really solicit the help in making sure that the 
appropriations occur horizontally as well as vertically, 
because again, to reinforce, we are spending a lot of money on 
EA in the silos. If you look at the amount that we are spending 
on FEA and cross-silo analysis, it is not quite a rounding 
error.
    Thank you.
    Mr. Puvvada. I echo Norm's sentiments and thank you very 
much for highlighting this to be a priority issue. And I think 
the whole methodology as well as the report, has significant 
impact on this, and we hope that effort certainly continues.
    If I net it down to what needs to be done going forward, if 
you really look at a couple of technical things underlying that 
actually is going to enable interagency information sharing and 
collaboration, the whole data architecting issue needs to be a 
very high priority. And one of the impediments to people 
wanting to share across is security; do I have security, is my 
citizens' privacy really taken care of in terms of meeting the 
expectations there. So if you couple data architecting with the 
baked in enterprise security architecture as a priority, we 
will begin to see some progress in that area, and I strongly 
recommend looking at that deeply and show your commitment as 
well there.
    Thank you.
    Mr. Putnam. Dr. McClure.
    Mr. McClure. I want to commend you, too, Mr. Chairman, and 
thank you for having the hearing and focusing attention on this 
topic, as complex and technical as it can get at times.
    My bottom line is, I think, as I said at the beginning of 
my oral statement, at the end of the day we have to keep our 
sight focused on what this is doing to improve the quality of 
government. We have to keep the citizen in mind and ensure that 
we are creating a more simplified and very cost-effective and 
efficient Government. That is what this all about, and we don't 
want to lose sight of that.
    Second, I think we have to focus on results. We have to 
move beyond the assessments to focusing on the ``so what has 
happened, what is different'' and get examples. The caveat I 
put on that is that architecture is a long-term process. It 
requires an up-front investment spike. That is why you see 
these large dollar figures in terms of what agencies are 
spending. The returns are slower in coming than if you were 
building a simple application or a single purpose system. You 
are rearchitecting and changing and moving lots of pieces of 
organizations. But, nevertheless, I think we have to begin 
asking when those results are going to occur. We need tangible, 
measurable results in the areas that we have talked about 
today, and we need to hold people accountable when they are 
saying that those will be the actual results that the Congress 
and the American people will see.
    Mr. Putnam. Well, I want to thank all of you for your very 
informative and insightful testimony. I appreciate your taking 
the time out of your schedule to be with us today. And I want 
to thank Mr. Clay for his participation in the hearing as well.
    Clearly, the proper design, development, and implementation 
of EAs across the Government has the potential to save millions 
in taxpayer dollars by eliminating redundant spending. Further, 
agencies' EA efforts are already facilitating the transition to 
a more responsive and citizen-centric Government by improving 
efficiency and facilitating cross-agency collaboration. 
However, as we have seen, we have much work to complete before 
we fully realize that goal. OMB's efforts in creating a common 
framework, the FEA, for achieving governmentwide development 
and implementation has already proven itself to be a valuable 
IT investment planning tool, as evidenced by the identification 
and creation of the Lines of Business initiative. While we are 
experiencing growing pains in integrating the agencies' 
individual EAs into the FEA, I believe the effort will lead to 
significant cost savings when the work is further advanced.
    In the event that there may be additional questions that we 
did not have time for today, the record will remain open for 2 
weeks for submitted questions and answered.
    With that, we again appreciate your hard work, and the 
meeting stands adjourned.
    [Whereupon, at 4:55 p.m., the subcommittee was adjourned, 
to reconvene at the call of the Chair.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T6944.095

                                 <all>

</pre></body></html>
